<html>
<title> - FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2003

                               __________

                           Serial No. 108-60

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

89-770              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
               Elizabeth Meyer, Professional Staff Member
                         Nicole Garrett, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 16, 2003....................................     1
Statement of:
    Kirk, Onnie, director, the Family Foundation Fund, Nashville, 
      TN; and John Lanz, Corrections Corp. of America, Nashville, 
      TN.........................................................    35
    Pitts, Paige, founder, New Hope Academy, Franklin, TN; and 
      Rev. Scott Rowley and Rev. Denny Denson, Empty Hands 
      Fellowship, Franklin, TN...................................    11
Letters, statements, etc., submitted for the record by:
    Blackburn, Hon. Marsha, a Representative in Congress from the 
      State of Tennessee, prepared statement of..................     9
    Kirk, Onnie, director, the Family Foundation Fund, Nashville, 
      TN, prepared statement of..................................    39
    Pitts, Paige, founder, New Hope Academy, Franklin, TN, 
      prepared statement of......................................    14
    Rowley, Rev. Scott, and Rev. Denny Denson, Empty Hands 
      Fellowship, Franklin, TN, prepared statement of............    21
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5

 
    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

                              ----------                              


                         MONDAY, JUNE 16, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      Franklin, TN.
    The subcommittee met, pursuant to notice, at 8:43 a.m., in 
the Franklin City Commission Chambers, Franklin, TN, Hon. Mark 
Souder (chairman of the subcommittee) presiding.
    Present: Representatives Souder and Blackburn.
    Staff present: Elizabeth Meyer, professional staff member 
and counsel; and Nicole Garrett, clerk.
    Mr. Souder. The subcommittee will come to order. Good 
morning, and thank you all for coming. It is a pleasure to join 
my colleague, Congresswoman Marsha Blackburn, here in Franklin, 
to discuss what characteristics make faith-based providers 
especially effective at serving the needs of their communities. 
She has already made great contributions to our subcommittee 
and to Congress, so I very much appreciate the opportunity to 
be with her here today in Tennessee.
    Many people toil away day in and day out in our communities 
trying to help those who are less fortunate. For these workers, 
service is not simply a 9-to-5 job, but a calling. They know 
that there is a need in their community and they are compelled 
to help. By doing so, they have been making a difference that 
cannot be denied. I have had the opportunity to visit many 
faith-based organizations, and time and time again have heard 
the testimony of men and women who have seen their lives 
transformed thanks to the love and support they received from 
volunteers and leaders in the faith community.
    At a minimum, government must not only allow, but should 
demand, that the best resources this Nation possesses be 
targeted to help those of us who face the greatest daily 
struggles. We must embrace new approaches and foster new 
collaborations to improve upon existing social programs. We 
know that as vast as its resources are, the Federal Government 
simply cannot adequately address all of society's needs. 
Services provided by faith-based organizations are by no means 
the only way to reach all people in need. Rather, they offer a 
unique dimension to that service--a corps of people motivated, 
in many cases, by their faith, who are ready, willing and able 
to help their neighbors around the clock. I believe that we 
cannot begin to address the many and diverse social demands of 
our Nation without the help of grassroots faith and community 
initiatives in every city across the country, and I am looking 
forward to seeing the many successes here in Franklin.
    A recognition that faith-based organizations are 
competently filling a gap in community services has led to 
legislation and regulations that encourage these organizations 
to become more involved in their communities, through both 
action by Congress and the leadership of President Bush. One 
example is seen down the road in Memphis, where a pilot program 
has been implemented through the Department of Labor. This 
program will develop a model curriculum of cooperation between 
the local Workforce Investment Board and faith-based and 
community groups that can be adopted by other cities across the 
country to help people in the workplace and with jobs.
    Charitable choice provisions have allowed faith-based 
organizations to compete for government grants on the same 
basis as secular providers so that they can reach more people 
in need. As we expand that involvement, we must fully consider 
the specific characteristics and methods that make faith-based 
groups successful at transforming lives. Today we will hear 
from organizations that provide care to children, addicts, 
prison inmates and the community as a whole. We need to 
understand how the unique element of faith impacts the 
structure and success of these programs. It is also important 
that we understand how your programs transform lives by 
building self-confidence and self-esteem.
    Our witnesses today represent just a fraction of the 
countless faith-based organizations around Tennessee that are 
raising the bar for the quality of services they are providing 
to their communities. I expect that our witnesses today will 
provide valuable insights on the provision of social services, 
and where the government can best assist community 
organizations of all types provide the best possible care for 
people in need. And I look very much forward to the testimony.
    I would like to add a few comments in context to what we 
are doing today in Franklin and what we are doing with our 
committee. I represent northeast Indiana in Congress. And years 
ago, one of my friends I helped elect, Dan Quayle, and then his 
aide, Dan Coats got elected to Congress, and when Coats became 
the senior Republican on the House Select Committee on 
Children, Youth and Families in the 1980's, it became apparent 
to us that the pressing problems in our society were never 
going to be met with just the increasing Federal budgets. In 
other words, when you look at the caseloads of probation 
officers, the challenges we face in our prisons, the challenges 
we face in child abuse and spouse abuse, with the homeless, 
with treating people with AIDS, that the government 
expenditures were not going to keep up, no matter which party 
was in charge, in any State, any community or the national 
level, with the nature of the problems. So how were we going to 
tackle this.
    Dan Coats in the House came up with a thing called the 
American Family Act in the 1980's. When he went to the Senate, 
it became the agenda for American renewal. I was his 
legislative director there. We started some of the first faith-
based initiatives in HUD that dealt with homeless and with AIDS 
where there were not these political controversies because 
really nobody would get involved in the early AIDS cases except 
for faith-based people, because everybody was afraid they were 
going to catch AIDS.
    And in the homeless area, there were not nearly enough 
people to treat and help the people on the streets, so nobody 
was objecting to faith-based organizations becoming involved. 
The person who wrote much of this for Dan Coats, in his 
speeches and so on, is a man named Mike Gerson, who now is the 
chief speech writer for President Bush, and has developed much 
of this type of concept as well as a number of the other 
individuals who worked with us in the late 1980's and 1990's 
and other staff such as Les Lenkowsky, who now heads 
Americorps, and others have moved up in the system and about 5 
years ago when the Republicans took over Congress, we started 
to pass what were called Charitable Choice provisions in the 
different bills. Senator Coats, in his last term, had one in 
the welfare bill, which was the first big initiative in 
Charitable Choice, Senator Ashcroft was its cosponsor in the 
Senate, and I carried in the House side through conference 
committee.
    Since then, I have been the person who has had about four 
or five of those amendments in Juvenile Justice and the 
Fatherhood Initiative and others. We just went through another 
one on the floor, arguing with that. Some others have been in 
and out of that, Congressman is still there active, J.C. Watts 
who has since retired, Roy Blunt and Harold Ford are coming up 
with the new variation of the Charitable Choice.
    But what became apparent as we got into the side arguments 
with Charitable Choice is that we were losing the primary 
argument, which is why were we trying to argue for the faith-
based groups to get involved in the first place. So in this 
subcommittee, which Congresswoman Blackburn is part of, here in 
her first term, we have oversight, but we have authorizing on 
narcotics legislation. So about half of our committee staff 
deals with drug policy, which drug treatment is one of the 
major areas we are plunging into. We have also oversight and 
some authorizing on things related to the Justice Department. 
Elizabeth Meyer works full time or almost full time on this 
faith-based project. And we decided in this 2-year term, one of 
the things we were going to try to do is to put together a 
report like we did on the borders that has been a premise 
report for the Homeland Security Committee on studying our 
border weaknesses and what we have to do to trade and so on. We 
want to do a similar thing for faith-based, so we are doing a 
series of regional hearings around the country; this being kind 
of central south, we will probably do one next year in Florida, 
we will do one in Los Angeles. We have one scheduled that was 
canceled that is coming up again in San Antonio for the 
southwest, we are doing one in Chicago in August and one later 
this fall either in Philadelphia or Boston. And that is in 
addition to the Washington hearings. Our first one there, we 
raised it inside drug treatment. We are moving the 
reauthorization bill and the administration has directly, 
through an administrative action in drug treatment, ordered the 
inclusion of faith-based.
    So we will be continuing to watch that. We will have a 
number of Washington debates about some of the policy. But what 
we want to try to do is find organizations that are tackling 
different problems in each region of the country and also get 
written testimony and names of other organizations and build 
the case that, look, we cannot tackle the problems without the 
faith-based and other community organizations and we need to 
figure out how we are going to work this together, because that 
is the only way that we can begin to face the problems.
    So I appreciate you being a part of that. We need to 
illustrate--let me make this point too. One of the advantages 
to testimony and why it is important that we are going to get 
testimony from rural areas, from small towns, from suburban 
areas and urban areas, the most concentrated problems are 
urban, but that does not mean there are not social problems in 
the whole range. And one of the things that is a criticism of 
faith-based from some is that there are only a few of these 
programs that really work and they are big programs and they 
are just concentrated in a couple of places.
    I believe there are thousands and tens of thousands of 
these programs, some of which are very small and which have 
structural problems on how to manage, how to fundraise. Some 
are medium sized and some are large and very urban poor areas 
that are predominantly resource challenged, because the 
problems are so great that they simply--and the assets are more 
in the suburban areas and there they have a different resource 
challenge, rather than a people challenge or a management 
structure challenge.
    So we want to air some of those differences and at the same 
show that this is not just a case of faith-based people like 
myself in Congress holding up my Aunt Annie and saying, oh, I 
know a program in my district that is really good. We want to 
show that all across America, this is systematic and something 
that we need to look at how we integrate into the fabric and 
acknowledge it is part of the fabric and the tradition of the 
United States.
    With that, I would like to yield to my distinguished 
colleague, Congresswoman Blackburn, and thank you very much for 
having us in your hometown.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T9770.001
    
    [GRAPHIC] [TIFF OMITTED] T9770.002
    
    [GRAPHIC] [TIFF OMITTED] T9770.003
    
    Ms. Blackburn. Thank you, Mr. Chairman. I want to thank you 
for bringing the Government Reform Subcommittee on Criminal 
Justice, Drug Policy and Human Resources to Franklin to look at 
the success of faith-based and community organizations in 
providing social services. In communities all across Tennessee, 
there are groups like the ones that we have testifying here 
today that help the homeless, counsel at-risk youth, assist the 
elderly and help drug addicts recover. In Tennessee, we are 
known as the volunteer State and we all take pride in 
contributing and giving back to our communities.
    Congress can play a role in assisting these organizations 
by providing more incentives for individuals to financially 
support them. Mr. Chairman, it will not be a surprise to 
anybody here in this audience today that the type of incentives 
I am talking about come in the form of tax reform. Recently, 
our Majority Whip, Roy Blunt, introduced H.R. 7, the Charitable 
Giving Act, which will expand the resources available to these 
groups by providing 86 million Americans who do not itemize on 
their tax returns the opportunity to deduct a portion of their 
charitable contributions. Mr. Chairman, I would not be true to 
my State legislative roots if I did not point out that I am 
also working in Washington to once again allow for the 
deductibility of State sales taxes, but that is something we 
will do at a different hearing. H.R. 7 will also provide 
incentives for individuals to make tax-free contributions to 
charities from their IRAs, their Individual Retirement 
Accounts, and raise the cap on corporate charitable 
contributions from 10 to 20 percent. I am proud to be a 
cosponsor of the legislation and it is my hope that Congress 
considers it soon.
    Faith-based and community groups have a unique approach and 
ability to improve the lives of people. However, there is 
little research that has been done into why these groups are so 
effective at their mission. President Bush has articulated his 
vision for strengthening that partnership between the Federal 
Government and those faith-based and community groups that 
provide compassionate care and produce impressive results. Mr. 
Chairman, today in Franklin, TN, we are going to hear from 
groups that produce these results, that produce success 
stories, and learn why these groups are so good at what they 
do.
    I want to thank Paige Pitts from New Hope Academy, Pastor 
Rowley and Pastor Denson from Empty Hands, Onnie Kirk from the 
Family Foundation and John Lanz from Corrections Corporation of 
America, Robert Flores from Lighthouse Outreach Ministries for 
being here and for testifying today before this committee. 
Thank you for the work you do and I look forward to hearing the 
testimony from each of you.
    [The prepared statement of Hon. Marsha Blackburn follows:]

    [GRAPHIC] [TIFF OMITTED] T9770.004
    
    [GRAPHIC] [TIFF OMITTED] T9770.005
    
    Mr. Souder. Thank you very much.
    Let me first take care of a couple of pieces of committee 
business. I ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record and any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection, so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record; that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    I would like to welcome our first panel to come to the 
witness table and to remain standing. Our first panel consists 
of organizations that are based here in Franklin. Paige Pitts 
with the New Hope Academy, Pastors Denny Denson and Scott 
Rowley with Empty Hands Fellowship if you could come forward 
and remain standing. Just a side note, Paige, your father-in-
law has been a tremendous voice for family values in the House 
and in fact was one of the earlier ones, I went up with several 
of my staff members the first time he held a conference in 
Lancaster, PA for faith-based organizations on how to approach 
the government, what laws and regulations there are, and we 
repeatedly looked at how to do models like that for other 
members because he has implemented that.
    I need to give you the oath. If you will raise your right 
hands.
    [Witnesses sworn.]
    Mr. Souder. Go ahead and take a seat. This is an oversight 
committee, most famous probably for when the Republicans first 
took over, we did everything from the travel office 
investigation to Waco to where were the missing files, who 
hired Craig Livingstone--all sorts of that type of thing and we 
were in the news for basically 4 years. That is why we are the 
only committee that does an oath. We are also the only 
committee that can subpoena e-mails and all that sort of thing, 
because our job is to make sure that the laws passed by 
Congress are implemented. So you are now part of that 
tradition, along with all these other people, 125 people fled 
the country or took the fifth amendment rather than do what you 
just did. So we appreciate that you have joined us.
    We are going to start with Paige.

STATEMENTS OF PAIGE PITTS, FOUNDER, NEW HOPE ACADEMY, FRANKLIN, 
 TN; AND REV. SCOTT ROWLEY AND REV. DENNY DENSON, EMPTY HANDS 
                    FELLOWSHIP, FRANKLIN, TN

    Ms. Pitts. Good morning, Congresswoman Blackburn; good 
morning, Congressman Souder; thank you for having me and the 
opportunity to share about New Hope Academy this morning.
    New Hope Academy is a school, pre-kindergarten through the 
sixth grade, serving 144 students here in Franklin. We just 
completed our 7th year.
    In the beginning, about 10 years ago or 12 years ago, I had 
the privilege of getting involved in the urban communities here 
in Franklin, those that live in government housing and in 
neighborhoods that are deemed poverty level. And from being in 
the courtrooms and being in their homes and being on the street 
and getting involved in their lives and their families, 
beginning tutoring programs and Bible studies and ministry to 
teen moms, we began to see that so much of our effort that was 
involving crisis intervention could only carry so much weight 
and could only make so much impact. And that is where we began 
to dream about starting a school that could truly impact--
spending 5 days a week, 8 hours a day, in the lives of these 
children and, therefore, in the lives of these families. To see 
the opportunity to get involved in prevention, to see how we 
can help reform--begin at an earlier stage than trying to 
figure out how to fix something that is broken, how can we help 
empower something before it gets broken.
    So that is kind of the context or the historical context 
with which New Hope Academy began. It was in the beginning our 
intention to be a school that would serve low income families, 
that they too, children of all economic means, would have the 
opportunity to receive faith-based or Christ-centered education 
that educated the whole child, that it was not just a program 
that focused on academics but we could look into the hearts and 
minds of these children and begin to love and serve them 
spiritually, emotionally, physically as well as intellectually. 
And so that is our goal, is to be able to really involve 
ourselves in the lives of these children.
    At the same time, when we began thinking about starting 
this school, we did not want to be a school that just was an 
inner-city school and that you have the segregation occur 
again--your more wealthy, upper middle class schools at one 
place, at one part of the city, and then you have your inner-
city schools. So we really asked God to show us how to do 
something that really was more reflective of our community 
racially, culturally and economically and really was more 
reflective of the God that we serve.
    And so we intentionally began with 50 percent of our 
students coming from low income families and 50 percent coming 
from middle or upper middle class families. We believe that 
community of students and parents and community, that there is 
a richer education because it is not only the poor that need us 
and our resources, but we need the poor and their resources 
whom God has entrusted in them. So we feel very blessed to have 
a very unique student population and community at New Hope, 
very different than most schools I have seen around the 
country, because we do focus on all children and seeing that 
rich diversity.
    In order to really, hopefully, impact these students' lives 
long-term, we have kept our class size to only 12 students in 
the classroom pre-K through second grade and 14 students third 
grade through sixth grade, a very small, nurturing, tutorial 
approach in the classroom. We have a very rigorous, 
comprehensive academic approach, it is a classical approach. We 
begin studying Latin in third grade that extends all the way 
through sixth grade ready for Latin II when they enter middle 
school. And to have a strong academic base that will help give 
them the skills to break that cycle of poverty.
    But we are not naive enough to think that it is through the 
academic approach only that these children will really escape 
some of the difficulties and challenges that lie ahead. And so, 
because of the low class ratio, we are able to really nurture 
the students as well. We really see our teachers as disciplers, 
really discipling these children, and so for children that come 
who are wounded, who are emotionally devastated, for children 
who have so many challenges that they cannot even begin to 
think about doing math or science or humanities because of what 
is happening in their lives, we have the opportunity to serve 
them and to hopefully counsel and disciple and deal with their 
hearts what is going on in their lives, so that they can then 
receive the academic excellence that they too deserve.
    We offer scholarships to our children, but at the same 
time, we make sure that every family pays something to be at 
New Hope Academy, that the family values the choice that they 
are making for their child, and that they too are making it 
possible for their child, it is not just the school giving 
scholarships, it is the family saying I can at least give this 
much tuition every month in order for my child to receive this 
education. So it is a community partnership effort.
    We are really committed to seeing community relationships 
as well as the academic success. And I would say, as far as our 
impact in the community, we are a young school, we have only 
been in existence 7 years, for us to see the large impact, I 
look forward to 20, 30 years from now, but the impact that we 
are seeing today, again, goes so far beyond seeing these 
children's minds and academics be encouraged and grow. We have 
seen students become very diligent in their academic work, they 
are becoming lovers of learning that as they continue through 
the journey of New Hope Academy, that they are excited about 
learning and about growing. And I believe that is one area that 
will help them from being dropouts and not having vision.
    So ultimately our goal, through equality, through 
community, through parental involvement and through classical 
education, it is our hope and desire to see these children have 
vision for their lives, that they see themselves being able to 
do whatever God has called them to do, whatever the purpose of 
their life is, that they are equipped spiritually and 
emotionally, socially, intellectually, physically to be able to 
go and fulfill their dream and to have a vision beyond maybe 
what they see in their own circumstances.
    I can stop there and if you have any questions, or if you 
want me to go on further.
    [The prepared statement of Ms. Pitts follows:]

    [GRAPHIC] [TIFF OMITTED] T9770.006
    
    [GRAPHIC] [TIFF OMITTED] T9770.007
    
    [GRAPHIC] [TIFF OMITTED] T9770.008
    
    Mr. Souder. Thank you. The committee rules, which today 
will be a little flexible with our 5 minutes. I understand that 
the two of you are going to kind of work as a tag team here and 
work through, so when the red light comes on--and for the other 
witnesses too--do not panic, you know, go through the points. 
And also, as you heard me say, in the record if there are 
things that you hear us talk about today and you think, oh, I 
would like to have that put in the record, one of the things we 
are doing is that at each hearing gets published as a little 
book. So if there are other groups or people that want to 
submit things, but also if you hear things stimulated, for 
example on the second panel and you say oh, I would like to put 
something in on that, or types of questions that you hear me or 
Congresswoman Blackburn asking, that you think oh, I could put 
some more written materials in; this is an opportunity to build 
a record which will probably be the only comprehensive record 
on faith-based. I am in my 9th year in Congress and I was a 
staffer for both the House and Senate and in grand total, there 
has probably only been five other hearings, maybe six, on the 
subject. So the record we are building here will be the 
predominant researcher record. So I wanted to put that in about 
additional information.
    Mr. Denson, you want to go ahead?
    Rev. Denson. Good morning, Chairman; good morning 
Congresswoman Blackburn, I am Pastor Denson, I pastor the First 
Missionary Baptist Church here in Franklin, TN and I am a part 
of the Empty Hands Fellowship.
    Rev. Rowley. And I am Scott Rowley and I am associate 
pastor for missions and outreach at Christ Community Church, 
Presbyterian Church in America; and since we are representing 
Empty Hands Fellowship together, we requested that we could 
testify together.
    Rev. Denson. The Empty Hands Fellowship is a group here in 
Franklin that is cross racial, cross economical and cross 
denominational boundaries. It was formulated to build 
relationships to bring about diversity.
    Rev. Rowley. What we find is that in faith-based work, much 
of the southern church is still segregated, which is obviously 
historically linked. So this is a statement and in a sense a 
demonstration for the last 8 years of clergy and lay people 
coming together so the church desires to be together, come 
together, integrated at this level. And I think it is one of 
the strengths of the ministry.
    What happens is that we meet together and we pray together 
and the intention is to see the needs of the people coming from 
the pastors of the churches and as that flow happens, we get to 
know folks who are in need and then we support a number of, and 
a variety of, faith-based ministries and initiatives here in 
the city of Franklin that extends to Williamson County.
    There is a law office--in fact, I think we have one of the 
representatives, the executive director, of the Jericho 
Community Law Office, which works on behalf of those that do 
not have a voice in our legal system.
    We have a Store-House Ministry that runs out of the 
Franklin Community Center, which is a block away from here, 
where walk up traffic, up to 30 people a month, with everything 
from their light bill that is needed, to educating their 
children, also a variety of needs.
    The Eagles Program, which is an after-school tutoring 
program.
    Habitat for Humanity is housed in that same community 
center and their remarkable work here in Williamson County has 
been well-documented.
    And also some international work that I think is 
interesting. The African leadership and our refugee 
resettlement work here in middle Tennessee--as you may or may 
not know, Nashville is one of the largest resettlement 
communities for refugees in the world, and in the North 
American continent, and we are glad to be a part of the work 
that is going on there, as well as the international side of 
that.
    Schools like New Hope Academy that have spawned, classical 
education and even right now, three schools in northern Iraq, 
which are--it is a very powerful movement to see how it works 
from here really even at the international community.
    Rev. Denson. And also spun out of the Empty Hands 
Fellowship is the Mercy Children's Clinic. It is one of the few 
clinics in middle Tennessee that still accepts TennCare. We 
have people come from as far away as Knoxville, TN, just 
because of the fact that they do still accept TennCare.
    They serve somewhere in the neighborhood of about 80 or 90 
people a day, they have got two doctors who are well qualified 
there. That organization or that clinic spun out of the Empty 
Hands Fellowship.
    We do a lot of street ministering for those who are 
disenfranchised, those who are on alcohol and drugs. We are 
able to send people to--because of the fact that there is not a 
rehabilitation clinic resource here in Williamson County, we 
partnered with some places in Nashville where we are able to 
send those who are chemically dependent. It too is faith-based, 
because I am a firm believer that you can treat your addiction, 
but if you do not treat the whole person--and this is what 
faith-based initiatives do, it treats the whole person. It is 
concerned about the whole person, not just the sickness, but 
the person himself. And that happens when you are able to speak 
into a person's life, when you are able to not just work with 
them, but become a part of who they are, you become a part of 
their lives. This is really what I think faith-based 
initiatives are absolutely.
    Rev. Rowley. We are involved with housing through 
neighborhood renewal programs and we develop programs. And as 
Denny has mentioned, alcohol and drug rehab. Part of what we 
are excited about also is that we demonstrate this literally, 
just as relationship. For instance, myself and Denny could not 
be more different as people.
    Rev. Denson. Right.
    Rev. Rowley. In our culture today, we would never really 
mix it up, which we find sinful, we find that wrong. So the 
intention is to say why are we not moving toward people who are 
very different than we are--economically, denominationally and 
certainly racially. And part of the strength of this fellowship 
is that 50 or more now lay leaders and clergy meet together in 
order to demonstrate that to our people. And what we are 
developing through that demonstration is really the 
relationships that have spawned the needs that we are able to 
address.
    Rev. Denson. One of the things that has happened recently 
is that an innovative way through the court systems, through 
the justice system, in dealing with those who are first time 
offenders who are not violent offenders, working with them, 
they are being released to the Empty Hands Fellowship that we 
might be able to work with them and speak some things into 
their lives.
    Rev. Rowley. Creative probation is a great way for us to be 
a part of the problem--solving the problems that come to the 
system. We know, for instance, that alcoholism is often treated 
as a crime versus something that is a sickness and an illness 
that needs to be healed. And so we are very in tune with and 
desiring to be a part of the kind of work that can help with 
those particular needs.
    We also want to make sure that you are understanding that 
what we find of grant-funded social services, that they are 
very important. We cooperate with 100 such services right here 
in middle Tennessee. However, as Denny has said, what we find 
is that they deal with the problem rather than the relationship 
with the person. We feel government has resources, we feel 
Empty Hands Fellowship has relationships. When those two come 
together, it is a very powerful thing. We would not want to see 
this as some opportunity for us to proselytize. We are not 
interested in making people religious people. We are interested 
in seeing how God, who has called us to work among the poor and 
the needy--how that then has impact as we couple the two.
    It is exciting for us to be here to see this kind of 
movement. We feel very definitely that this will be a help to 
our community.
    Rev. Denson. Because with faith-based initiatives, I am a 
firm believer that you end up building life-long relationships 
and what Paige said about the school. You have some children 
there from different economic and different social backgrounds 
that will build relationships that will last a lifetime. So 
this is what faith-based initiatives will do, they build 
relationships. It is not once the problem or your sickness is 
taken care of, you are on your way, but you are building life-
long relationships and this is what faith-based initiative is 
all about, because we are driven by the Gospel.
    Rev. Rowley. One such group that we work with is the ERACE 
Foundation, the director John McGuire. In fact, Congressman 
Blackburn was a part of the race that we had, literally a go-
cart race here, a great opportunity for people to come out and 
support one another and to get to know one another, just to 
relate, but also the needs that came out of those types of 
events or come out of those events give us special needs to 
address.
    So these sound like kind of high and imperial kind of 
ideas, but they really are on the ground literally, day to day. 
It's our lives commitment. Denny and I are committed to each 
other as long as the Lord gives us breath and as long as we are 
here. That is our commitment and I think that is what faith-
based work in a sense does, because it is based on a commitment 
that our God has made to us. We believe Christ relocated to 
heaven to be among us, to dwell among us, to be with us. That 
is the sign of true love, that we would lay our lives down for 
one another. That does not come through a government program, 
it really comes from a heart that has changed.
    Rev. Denson. And when Scott said myself and him, we are not 
omitting the Empty Hands Fellowship, because if it be not for 
the Empty Hands Fellowship, we would not have the relationship 
that we have now. So faith-based initiatives are driven by 
relationships. I think faith-based initiatives are driven by 
compassion and this is the difference I think between other 
organizations that are not faith-based. They are driven by 
compassion, they are driven by relationships. It is through 
relationships that I think you can get the better job done 
because of the compassion that you have.
    Rev. Rowley. One of the supportive programs that President 
Bush spoke of when he was here for the NRB was the idea of 
allowing a drug addict or someone who is addicted to have 
access to a voucher that allowed them to go to the group that 
was actually where they wanted to be fixed, where they wanted 
to be healed, where they felt like they could get the best 
deal. We find that extremely attractive because what it would 
say is that those that really do care and are working 
diligently out of calling, they will see a success record and--
they will be successful in ways that others that do not see 
that as their calling may not be as successful.
    Again, we are not putting down those that are a part of 
social services, it is a huge issue and an important issue, but 
we do think that kind of a system could be very valuable.
    Rev. Denson. I have been a member of DDC or was member of 
DDC for a long time, the Dangerous Drug Commission, when I 
worked with those who are chemically dependent in Chicago and 
it was not faith-based at that time. But in being involved with 
a faith-based initiative, I see that faith-based is the way to 
go. The success rates are higher because of the mentoring of 
the relationships program.
    In the other social program, what happens is that once you 
have completed the program, you are basically kind of on your 
own. But the faith-based initiatives are there for nurturing, 
they are there for caring for a lifetime because of the 
relationships that are built.
    [The prepared statement of Rev. Denson and Rev. Rowley 
follows:]

[GRAPHIC] [TIFF OMITTED] T9770.009

[GRAPHIC] [TIFF OMITTED] T9770.010

    Mr. Souder. Thank you very much. I think that the way we 
will start the questioning is I want to lay out a little bit, 
through some questions, the context, and then I will yield to 
Congresswoman Blackburn for some questions and then I will come 
back with some more particular.
    Both for my information and also for the record, so we kind 
of understand, I think we need to get some basic data and 
background in about where we are in the particular challenges.
    Franklin is a city of how big?
    Rev. Rowley. We are approaching 40,000 citizens.
    Mr. Souder. And it looked like the Nashville suburbs were 
coming pretty close here.
    Rev. Rowley. Our county, Williamson County has 110,000 
people in it, we are a direct bedroom community to them. 
Brentwood separates Nashville from Franklin.
    Mr. Souder. What is the historical percentage in this 
county of African-American persons?
    Rev. Rowley. In 1865, there were 12,000 African-Americans 
who were enslaved in Williamson County. Now approximately 8,000 
African-Americans live in the county.
    Mr. Souder. And is that changing as you have the Nashville 
suburbs come down? Has the percent declined as a percent?
    Rev. Denson. Yes, because of lack of affordable housing.
    Mr. Souder. So the income disparities have, to some degree 
become greater.
    Rev. Denson. Yes.
    Mr. Souder. Have you had an influx of Hispanic population 
as well?
    Rev. Denson. Yes.
    Mr. Souder. It approaching half the size of the African-
American community or greater?
    Rev. Denson. About a third.
    Rev. Rowley. Yeah, I would say a third.
    Mr. Souder. What would be the other major refugee 
communities that have come into the Franklin area?
    Rev. Rowley. We work with a group from the Kurdish--that is 
how our connection with northern Iraq really happened, through 
Kurdish refugees in south Nashville. We also have some student 
from Somalia--we have a Somalian refugee group, families that 
are--actually, they are orphans and children refugees from 
Somalia and we have seen them in our care as well.
    Mr. Souder. My personal belief is that the most 
extraordinary thing that has been changing since I have been--I 
have been interested in politics since I was a kid, but 
heretofore, you would look at Central America. Northern Indiana 
is probably about the most isolationist area of America. 
Nashville area in Tennessee probably is not too far behind, in 
the sense that we are right in the heartland, lots of 
controversy about international issues, lots of controversy 
about trade issues, all that type of thing, even about whether 
to go to World War II.
    I always say my District had a lot of diversity--north 
Germans, central Germans and south Germans. [Laughter.]
    But we have changed really dramatically. I now have the 
largest dissident Burmese population in the United States, 
2,000 have come in because legislators came in, 
parliamentarians and national student groups. So again on 
Friday, I had all kinds of protests outside my office about 
Federal policies. That is a whole new variable in the last 3 
years that has come in. Largest population of Macedonian 
Americans. So all of a sudden, I wound up in the middle of the 
Balkan argument.
    So each member and each city have slightly different 
things. We have one high school with 83 different dialects in 
it. So all of a sudden, I have a group of 100 Sudanese who want 
to meet with me, I did not know I had any Sudanese in Fort 
Wayne.
    So these challenges are really difficult in the faith-based 
area and that is why I am going to be asking these questions at 
each hearing, because traditionally when we started with the 
concept of the Federal programs and as we worked in the 
empowerment zones, we were historically looking--and it is 
still a critical and large component--in the African-American 
urban and rural poor. We now have a whole new dynamic, and some 
of the immigrant groups come in and move rapidly through the 
system; others get stuck, they do not have the historic 
component of slavery and the historic discrimination, although 
every group gets discrimination when they first come in. Thus, 
the background of my questions.
    Do you have language challenges in your group?
    Rev. Denson. One of the things that makes the Empty Hands 
Fellowship so unique is that we have a whole cross section of 
the community--we have Hispanic pastors, we have brothers that 
are part of the Empty Hands Fellowship from Africa, you know, 
and so this is what makes us so unique, we are able to address 
most of those problems.
    Rev. Rowley. We do have language, in terms of Spanish. The 
Sudanese and others that are here, those present particular 
problems as well. But I would say our biggest struggle is the 
lack of Spanish.
    Mr. Souder. Could you explain a little the differences 
between your Franklin and your Nashville operations and what 
the challenge differences and the population mix, your outreach 
mix, or are they similar?
    Rev. Denson. Smaller but similar, I would say. We just do 
not have from the population perspective, but we would have the 
same problems.
    Mr. Souder. And is the lower income population in this 
area, do you have--is it fairly dispersed or does it tend to be 
concentrated?
    Rev. Denson. Concentrated in a few pockets.
    Rev. Rowley. Seven, six or seven neighborhoods comprise 
probably 90 percent of our disadvantaged.
    Mr. Souder. Do you have in this county or in immediate 
counties beyond, do you have rural poor as well and would that 
be--one of the things that is different--you are from Chicago 
and you know this difference from the north.
    Rev. Denson. Yes.
    Mr. Souder. Our poor in the cities tends to be minority, 
our poor in the rural areas tends to be white.
    Rev. Denson. That is right.
    Mr. Souder. In the south, that is not necessarily true. 
Could you describe that a little bit.
    Rev. Rowley. Well, I would say that is, in the sense that 
what we are constantly battling is not confusing ethnicity with 
economics. There are low income and rural white poor and we 
need to always be careful with that and that is something we 
are addressing.
    I wanted to make a correction, I was handed this. In terms 
of Williamson County, 91 percent, 91.6 percent white; the 
other, black, 5.2; Hispanic, 2.5 and other, 2.5; so there is 
about 10 percent, which would bear out with that 8,000 to 
10,000 that are in minority status.
    Mr. Souder. Odds are that Hispanic is slightly understated.
    Rev. Rowley. Probably.
    Mr. Souder. Do you have anything you wanted to add on the 
basic statistical? I will come back with some specific 
questions.
    Are you seeing the same diversity challenges in your 
school?
    Ms. Pitts. Having the Spanish influx certainly is raising 
questions and issues that we are having to deal with as far as 
ESL teachers. We have a great relationship with the Hispanic 
pastors, which are helping us make the transitions and the--
when we get the littlest kids it is not an issue because they 
can pick up language so quickly. Bringing the older children 
in, it is going to present some issues of getting ESL teachers 
and looking at our program.
    So that would be our greatest exciting challenge, is 
looking at the Spanish influx coming into Franklin.
    Mr. Souder. Thank you. Congresswoman Blackburn.
    Ms. Blackburn. Thank you so much.
    Thank you all for your testimony and your preparation for 
today, I appreciate it.
    Ms. Pitts, a couple of questions for you.
    Ms. Pitts. Sure.
    Ms. Blackburn. How many students total do you have at New 
Hope?
    Ms. Pitts. This coming fall, we will have 144 students.
    Ms. Blackburn. 144.
    Ms. Pitts. Uh-huh.
    Ms. Blackburn. And the space that you are conducting the 
school in, could you describe that for me?
    Ms. Pitts. Yes, we have been blessed with a 33,000 square 
foot beautiful facility on Downs Boulevard that we have been in 
for the last 2 years. We rented space just down the road for 
the first 5 years and we are entering our third year of having 
our own facility that will be able to house two classes of pre-
kindergarten through the sixth grade. That is what we have 
established at this point. It was strategically placed within 
the different economic neighborhoods of Franklin.
    Ms. Blackburn. So you built your own facility?
    Ms. Pitts. We did.
    Ms. Blackburn. Raised your money.
    Ms. Pitts. We did.
    Ms. Blackburn. OK, great.
    Ms. Pitts. And still are raising money. [Laughter.]
    Rev. Rowley. A lot of money.
    Rev. Denson. Not government funding.
    Ms. Blackburn. OK. And you are a 7-year-old school?
    Ms. Pitts. Yes, ma'am.
    Ms. Blackburn. OK. Now talk with me for a moment about the 
students that finish your program and where they move on to and 
then I would like for you to quickly follow that with a little 
bit about your success rate as far as children staying in 
school and include in your explanation, graduates, if you have 
had any high school graduates.
    Ms. Pitts. OK. We are an elementary school and we have only 
been in existence 7 years and we since started with pre-K 
through second grade, our graduates at this point have just 
finished eighth grade; so being able to see, you know, the 
impact as far as high school dropouts and graduates from high 
school, we are not at that place yet.
    As far as graduates from New Hope Academy, we are committed 
to go through the eighth grade because we feel like seventh and 
eighth grade are so critical to a child. At this point 
financially we do not feel that we need to do that yet. We will 
build our seventh and eighth grade at a later time.
    So at this point, our sixth graders move into either other 
Christian schools, private schools or public schools. And what 
we try to do at the school along with the parents is to find 
the school that will best address the child's needs, that will 
best fulfill their goals and their strengths. And so we see all 
those as good options.
    I would say typically roughly two-thirds of our graduates 
go on to some form of private schooling. We have had to work 
with other private schools to help provide scholarships for 
these children, and that has been part of the exciting work, is 
partnering with organizations that are already here. So whether 
it's a VGA that has, you know, been here since the 1800's as a 
private school, or relatively new Christian privates schools, 
we try to work with their administration to say we have 
children that are able to move into your academic program, are 
you willing to look at them and provide scholarships. And that 
has been very successful, to see those partnerships at a junior 
high and a high school level. We do have some that choose to go 
on to public middle school as well.
    So we have seen the transition be very positive, whether 
they move on to a public school setting or they move on to a 
private prep school setting. I can say, except for one student 
that I know, they have all been successfully able to integrate 
into a situation, academically and socially. So we see that as 
a great impact. In fact, I think their desire for learning and 
what they want to see with their own lives once they move into 
those middle schools is probably greater than what I have seen 
come out of other institutions.
    I do not know if that fully answers the question.
    Ms. Blackburn. Yes, that is a great answer for that, I just 
wanted to get that kind of as background for where we are. I 
think that with schools such as yours, just as we have through 
the years looked at the home schooling concept, being able to 
go back and have that evaluated data, that historical data 
toward the impact of the success rate of those children----
    Ms. Pitts. Absolutely.
    Ms. Blackburn [continuing]. Is important. In your testimony 
that you presented to us, in our packets, your written 
statement that you gave to us, and then in your testimony here 
today, you have spoken a couple of times of nurturing, of 
social capital and leadership skills.
    Ms. Pitts. Yes.
    Ms. Blackburn. So I would like for you to give me a brief 
statement as to what track you follow with the children in 
nurturing them toward developing the leadership that is 
necessary to be successful in the world. How do you prepare 
them for this?
    Ms. Pitts. Absolutely. Well, I think you begin with where 
their deficiencies are. I will get to the leadership part of 
it, but when you talk about social capital and you talk about 
children that come in with deep wounds, whether it is 
emotionally or spiritually or otherwise, you really have to--
like they were saying before, you have to deal with the whole 
child in order for them to be whole, so that they can move into 
a place of being effective and impacting leaders.
    So again, that nurturing of the heart--I mean when you take 
away being able to deal with a child's needs for faith and 
values and morality, you are not able to really strengthen the 
child to then carry forth leadership with wisdom and 
discretion. It might just be from a factual, knowledgeable 
place. So I mean, we have everything from things that we do in 
the classroom and devotions to even our teachers that deal with 
home situations with the child. We have children that go live 
with other families for awhile, we have children that are 
picked up every afternoon by their teacher and sent home with 
their teacher after school.
    So whatever it takes to help the child move into a healthy 
place, that is first and foremost. Then, as we can develop 
leadership skills, I would say some of the things that we do, 
again, within--for instance, everything we do in the morning is 
we start with devotions and our older kids help lead our 
younger kids. They sit with the younger kids, they do reading 
groups, our older kids do reading groups with younger kids. We 
give them opportunity for leadership, but leadership will 
really happen from hoping to heal the wounds of the child.
    Ms. Blackburn. One last question for you and then Mr. 
Denson and Mr. Rowley, I would like for each of you to answer 
this one for me. Do you believe that a faith-based organization 
would lose its identity because of accepting government funds?
    Ms. Pitts. I do not, as long as there were no particular 
strings attached to where we had to change our curriculum or we 
had to change the way that we did things. If we did not have to 
change the way we were already doing our program, I think it 
could work beautifully, I think it could be a wonderful 
partnership.
    Rev. Denson. I think the support is much needed from the 
government, but I agree with Paige, and that is if we have to 
change the way we do business, if a mountain of paperwork 
becomes a problem, then I would say no. It would defeat the 
purpose, you know, because the government is notorious for 
paperwork and this kind of thing. Because the faith-based 
initiatives right now are doing a tremendous job on paperwork 
and this kind of thing, without being watched or governed. And 
so I do believe that if it could be business as usual for the 
faith-based initiatives, I think the government could play a 
tremendous partner in that.
    Rev. Rowley. I would agree that we have an opportunity to, 
I think all of us, mature and for this next full century say 
how does the idea of the separation of church and state really 
work and for those that are adamant on either side to come to 
compromise and say this is not about the government directing 
the church and faith-based work. It's also not about faith-
based work just taking advantage of government.
    Rev. Denson. Agreed.
    Rev. Rowley. And if we do not willingly come together and 
say we need each other, then we lose out I think on a great 
opportunity.
    Ms. Blackburn. Thank you, Mr. Chairman.
    Mr. Souder. Let me pursue a couple of different questions 
with this. Maybe you can answer this first. If you had to 
change--I am trying to think of the best way to say this. It is 
really awkward when we are in this arena, talking about the 
difference between people who are working for the government 
and people who are working in the private sector. You have made 
some presumptions and if anybody--if I am wrong in any of these 
presumptions, just correct me for the record now. I personally 
do not think it is necessarily true--it might be true in some 
cases--that people who work for the government are not moved 
and care about their people. The same for public teachers and 
private teachers. There may be some differences and I am not 
saying some people do not get burned out and all that type of 
thing, but often it is taken that when we try to hold up faith-
based organizations that somehow we are putting down other 
people.
    There are some structural differences and let me try to 
touch on a couple of these. In your school, what is your size 
to teacher ratio--pupil to teacher?
    Ms. Pitts. Twelve students to one teacher.
    Mr. Souder. Are you able to maintain that difference? Do 
you get any government funds?
    Ms. Pitts. No.
    Mr. Souder. Not even indirect, for IDEA?
    Ms. Pitts. No.
    Mr. Souder. Computers?
    Ms. Pitts. No.
    Mr. Souder. Not even indirect funds. Do you know whether 
any of your students get indirect funds?
    Ms. Pitts. No.
    Mr. Souder. For disabilities or anything?
    Ms. Pitts. No.
    Mr. Souder. So you are able to get to 12 class size 
predominantly because of private giving.
    Ms. Pitts. Correct.
    Mr. Souder. And in that private giving, if you lost any of 
your unique religious angles, would the private giving likely 
dry up?
    Ms. Pitts. Absolutely. I think the school would dry up, not 
just the giving.
    Mr. Souder. Let me as a couple of tough questions, because 
one of the big debates on this--as you can see, the Democratic 
ranking member and the other Members are not here, they have 
given me, because we work very closely with each other, the 
ranking Democratic on this committee, Elijah Cummings, is head 
of the Black Caucus, he knows we have mutual concern about 
minority issues, he has given me free hand to run the hearings 
but I have to be careful because I am a very conservative 
Republican and I do not venture into areas that become too 
partisan and we are going to have some national debates with 
Americans for Separation of Church and State and so on. And I 
am not looking for particular controversial answers and I do 
not want to get into kind of the most explosive areas of do you 
hire non-Christians, homosexuality. Those are fundamental 
questions, but I want to get into one that we do not explore 
very often.
    If in your school you had a teacher who you heard was 
beating his spouse, would you have a discussion and/or 
terminate that person, whether or not it went to court?
    Ms. Pitts. Yes.
    Mr. Souder. Because you would view that as compromising 
your mission, even if it had not been proven true.
    Ms. Pitts. Yes.
    Mr. Souder. Now one thing that is not understood in faith-
based by a lot of people is if you get government money, you 
could not do that, because you would have to have a due process 
hearing and this is a very touchy thing when I talk to 
different religious organizations who want government money, 
because organizations that are faith-based think that their 
staff is part of their mission. And it is not just the 
traditional controversial things we hear about hiring. You lose 
discretion on things that are potential testimony presumably to 
the organizations or yourselves as reflecting the glory of 
Christ. If that is the case, then you do not want to reflect--
and the problem here are rumors or allegations or things that 
you may have heard in church from counseling, and this is a 
very explosive category and the biggest controversy, hiring, 
with it and it is usually around the more inflammatory things, 
which is a second category.
    But I wanted to touch on that.
    And the giving angle is important because if you get 
government funds but have to compromise, even if you were 
willing to compromise your mission, what I wanted to establish 
is that it also might compromise your giving because--even if 
you are willing to compromise your mission in order to get 
government funds, you might find that you did not get enough 
net gain in dollars. In other words, if we put something on you 
that----
    Rev. Rowley. Right.
    Mr. Souder. Would you comment as well?
    Rev. Rowley. Well, I think that because we do rely heavily 
on donors and those that believe in the mission, that is 
potentially there. I think it takes a lot of communication, I 
think it takes a lot of making sure people work through each of 
those--I am not saying it would not be difficult. It would be 
difficult, we would have to work through it, but I do think 
that can be communicated. And I think that is where people are 
going. I think people desire to be a part of something that is 
an answer that is producing and being successful.
    Mr. Souder. Now presumably in your organization with the 
diversity of programs you are doing, you are touching a number 
of government funds.
    Rev. Rowley. No.
    Mr. Souder. In probation, housing?
    Rev. Rowley. No, none of those funds.
    Mr. Souder. Do you get any students assigned by a court or 
any young people assigned by a court? You have touched 
government funds if you have somebody assigned by a court.
    Rev. Rowley. Meaning that we would receive money for that 
student?
    Ms. Blackburn. No.
    Mr. Souder. Maybe you could describe the creative probation 
with me.
    Rev. Denson. We just had recently a case to come, a young 
man had committed a crime, the court sentenced him to like 120 
days I think it was, and it was probation, turned him over to 
the Empty Hands Fellowship that we might nurture and speak some 
things into his life. And so this is how that innovative----
    Mr. Souder. Was he ordered into your custody or was he 
given the choice to go into your custody?
    Rev. Denson. He was given a choice.
    Mr. Souder. Does he receive any support for going through 
your programs or you just took him?
    Rev. Denson. No.
    Mr. Souder. In any of the housing, could you describe some 
of the housing programs that you have done?
    Rev. Rowley. Yeah, it is all money that is raised from the 
private sector in order to rehab existing homes or build new 
homes, like the Habitat style. Habitat is just so backlogged, 
as well as Williamson County Housing Partnership, which is 
another wonderful work that does affordable housing.
    Rev. Denson. Basically I would say with the exception of we 
will say Mercy Children's Clinic, which receives TennCare, most 
of the organizations within the Franklin community are not 
government funded, it is money that is raised, that is given.
    Mr. Souder. Do you get any community block grant money for 
anything?
    Rev. Rowley. We are making attempts. We are kind of new to 
that.
    Mr. Souder. Because community block grant is Federal money 
that comes down to the local level community social services. 
They are allowed to include faith-based organizations in that 
under the Charitable Choice provision, but that is one that is 
going to be challenging.
    Rev. Rowley. I believe there was one block grant with the 
Community Housing Partnership in Williamson County that was on 
Glass Street here in Franklin, that was half a million dollars 
that was used over the last 6 years or so.
    Mr. Souder. I agree with you on the general principle of a 
voucher, where the individual makes a choice, and certainly 
judges have to be very careful. I have three college friends of 
mine who are now judges in Fort Wayne and particularly all the 
juvenile judges, and they are really working with what they can 
do to assign in drug courts--I really like the term creative 
probation--other types of programs like that and how they can 
interact with the faith community. But they have to be very 
careful because the individual has to have that choice.
    One of you in your testimony said that in I believe it was 
drug rehab, that there was not a local program, Nashville is 
the closest?
    Rev. Denson. Yes.
    Mr. Souder. How far is Nashville?
    Rev. Denson. About 20 miles.
    Mr. Souder. Twenty minutes or so. In terms of government 
grant programs, that is probably relatively close. One of the 
things that, as we have worked through the different 
flexibility provisions is that there clearly has to be a choice 
for the individual that would include a non-religious choice or 
we would not be giving them a true voucher, we would be saying 
this is the only government document or alternative.
    Let me ask a couple of--and any that you feel are, it 
depends on the situation or you do not desire to answer, that 
is fine. I want to ask a couple of questions.
    In any of your programs, do you begin with prayer or 
include prayer as part of----
    Rev. Rowley. Prayer is really the central part of 
everything we do, it really is what we think we are here to do, 
is to commune with the Lord, reconcile with the Lord, as he has 
reconciled with us, and then reconcile with each other.
    Rev. Denson. One of the things I would like to say is that 
I do a lot of street ministry, I deal with those who are 
chemical and alcohol dependent. They know who I am, they know 
my calling and when they come to me, they know I am going to 
pray. It is not something that is forced on them, they know it 
is going to happen when they come.
    Mr. Souder. If you were told that prayer could not be part 
of your program, do you believe your program would lose some of 
its effectiveness?
    Rev. Rowley. Yes.
    Rev. Denson. Maybe the program would not, but I would, I 
would lose some of my effectiveness.
    Rev. Rowley. Yeah.
    Mr. Souder. Do you believe if you had to take your collars 
off, it would impact your ministry?
    Rev. Rowley. No.
    Rev. Denson. I do not wear it during the day.
    Rev. Rowley. And again, I wear it to public places--I wear 
it to places like this, when we met the President----
    Rev. Denson. Right.
    Rev. Rowley [continuing]. Because it is a distinguishing, 
certainly in our culture, it is a distinguishing mark that says 
to us and a demonstration that we are here to represent Christ. 
And you know, that is another point that is very important.
    Rev. Denson. The collar does not make me who I am.
    Mr. Souder. Would you be able to talk to kids who were in 
trouble or implement your programs if you could not say the 
word Christ?
    Rev. Denson. I do it all the time.
    Rev. Rowley. Yeah, we do that. I mean in terms of just the 
sheer anthropology of our work, that we are working and dealing 
with people, and so we talk like people. At the same time, if 
in the course of that conversation, they ask why do we give 
hope for the future, it certainly does not have a lot to do 
with our skills and ability, it has to do with our Creator.
    Rev. Denson. And I think the Gospel is basically 
demonstrated in how you relate to people, not by what you say. 
It is what they see in us.
    Mr. Souder. When you are dealing with the Kurds, how do you 
handle that?
    Rev. Rowley. It has been interesting, obviously the influx 
of Muslim people, and it is the same way that we are working 
with a variety of religious belief. When the President was 
here, he had a great comment that I thought was right, that 
said, in terms of recovery, what we want to see people do is 
come off their addiction and we do not really care whether it 
is a crescent or a Star of David or a cross that is on the 
interior of that rehab center. Really are the people coming off 
of drugs.
    And AA has a Christology about it, it has a Biblical base 
to it, but at the same time, it is not a place where you are 
going to hear a lot of religious talk. You will hear about a 
Higher Power, which is a religious idea, but for us, we are 
centered on Christ. At the same time, AA is there to keep 
people sober, and if that is what's happening, why would we not 
get behind that in order for them to move into wherever--as 
Paige said eloquently, wherever God is calling them, whoever he 
is calling them to be. That is not our decision, that is God's 
decision. All we can do is be faithful to what we know is true.
    Rev. Denson. That is one of the reasons I think the voucher 
system would be a tremendous system, because then an individual 
can make the decision, yes, I want to go to the faith-based 
group. You know, it would be a choice.
    Mr. Souder. If I can continue to pursue this----
    Ms. Blackburn. Go ahead, I will go back.
    Mr. Souder [continuing]. You are right at the edge of some 
of the very difficult questions we are trying to work through 
because we want to try to figure out how to help and expand 
faith-based programs without choking them. Because faith-based 
programs without the faith component are based programs which 
we aren't even sure what it means then.
    Rev. Denson. Yes.
    Mr. Souder. Let me pursue this a little further. You said 
earlier that you believe that relationships were the key, not 
resources. That is one of the differences between you and 
government. That you believe that changing--that you want to 
see their lives changed. So let us take a Kurdish person who 
comes--Muslim presumably, because not all of them are, but let 
us say they are Muslim. They come to your group. You also said 
your primary goal was not to proselytize.
    Rev. Denson. Uh-huh.
    Mr. Souder. So if they come to you for housing, your goal 
is to get them a house. Do you believe that the primary purpose 
that people are giving you money in your organization is to 
give them a house or are they also thinking you are giving them 
a house and also going to lead them to Christ?
    Rev. Rowley. I believe that people support us because they 
are convinced that the mission that we have is right. And to 
say that the mission can be separated into the context of the 
whole person from their spiritual life, their physical life, 
their emotional life. To think that could be separated, we 
would probably have a problem with and most of our donors would 
think Biblically--or in terms of world view, would have that 
same world view.
    So I would think it would be----
    Rev. Denson. Well, one of the things that happens is our 
Savior, Jesus Christ, when he took the two fish and five barley 
loaves and fed the 5,000, everybody there was not in his 
corner, it did not matter. We are here to live out the Gospel 
and just because a person does not accept Christ does not mean 
that I cannot have compassion for them.
    Mr. Souder. By the way, I absolutely agree with that 
statement.
    Rev. Denson. Yes.
    Mr. Souder. Would you be concerned if you got that person 
the fish or the house, but you felt their soul was lost, to do 
followup with them or do you view that as somebody else's job?
    Rev. Rowley. Probably just as good social servants, 
followup is critical. One of the things that Paige does so 
beautifully in her school, as Marsha has encouraged her, as 
Congressman Blackburn has encouraged her, to re-evaluate. They 
consistently say how do we followup and again----
    Mr. Souder. They are fine in a secular sense.
    Rev. Denson. Well, if you tell me that he is OK and do not 
want me bothering with him, he just got left alone. You know, 
one of the things you cannot do, you cannot force anything on 
anybody.
    So what has to happen is that I have to let that person 
know that I am available for you no matter what happens, you 
know, whether you accept Christ or not. My concern is to help 
you, my concern is to be there for you whenever you need me. 
That would be the total concern.
    Mr. Souder. Your quote, proselytization would be that you 
are going to let your light shine.
    Rev. Denson. Yes.
    Mr. Souder. If they come to you and say why are you doing 
this, what is your motivation, you will share with them, and 
you are going to make general statements about your faith 
throughout because it is integrated in a holistic life.
    Rev. Denson. Right.
    Mr. Souder. But your primary role at this particular 
mission is not the proselytization, it is to provide the human 
secular services.
    Rev. Denson. It is how can I serve you. What can I do to 
serve you.
    Rev. Rowley. Christ's example of word and deed, that he 
speaks the truth of the Gospel but he lives the truth of the 
Gospel as well. And that would be our motive and model.
    Mr. Souder. One of the examples that I have turned on its 
head in my home community is--and we have had some--I can see 
how this works in juvenile probation where there may be several 
alternatives in drug treatment, but I knocked out in the 
original J.C. Watts bill--under the current bill, they have 
withdrawn all the Charitable Choice because we cannot move any 
legislation right now, it is just tax breaks, which are very 
important, which is the centerpiece of it. And we got off, in 
my opinion, on a side piece.
    But we were looking at senior nutritionsites. Now unlike a 
person for drug treatment who may, in fact, go all the way to 
Minnesota to the Hazeldon Clinic or something, that if you are 
in a nutritionsite and you are 90 years old and you are trying 
to get nutrition, you are probably looking more in terms of 
blocks than you are otherwise.
    Rev. Denson. Yes.
    Mr. Souder. I have a neighborhood where the majority of 
this huge housing complex, about half are Burmese and Buddhists 
and about half are Bosnian Muslims. A faith-based group won 
that nutritionsite for administering it. Also, the community 
around it, which is predominantly Christian, and if that group 
did what you do--this is our Federal challenge. If they had a 
voucher and the only nutritionsite was provided by a faith-
based group, probably Buddhist or Muslim, how would you feel if 
it was your mom or dad who was going there and they were 
constantly referring to Mohammed or had prayer as part of the 
program, even if they were not forcing it on, basically before 
they got the food--what would your reaction--in other words, I 
understand what you are trying to say and from my perspective 
as a Majoritarian and a Christian, I do not feel like if I am 
just helping serve you, but Christ is part of my life and I 
start with prayer and that is just part of me. I would think 
you could accept it if you want to be part of this program.
    On the other hand, how would you feel if it is reversed. 
That is our challenge right now in the government.
    Rev. Rowley. I just think that if you look at it 
competitively, then that is probably the wrong way to look at 
it in my mind. And again, my mom, if she were in that process, 
I would first of all thank those people for feeding her and I 
would be grateful and thankful for wherever she was getting 
food. And at the same time, my witness, my personal life 
hopefully in front of them would be that this is what I 
believe.
    We cannot change anybody, that is not our job to change 
people. We believe God changes hearts and therefore, we would 
be hopefully consistent in that same arena.
    Mr. Souder. I am going to yield.
    Ms. Blackburn. I do not.
    Mr. Souder. I appreciate and I want to--we will probably 
have some followups as we go through. I got a little more in-
depth but you had very creative answers to your challenges, 
that the social programming questions is different than the 
school questions. The school questions, we are battling through 
in the Education Committee and we are basically at full, 
complete gridlock. The courts have already ruled that--and you 
heard me hinting that, that you could probably get involved and 
be eligible for--although the public school systems do not like 
it--transportation funding. You could probably be eligible and 
we are battling this through IDEA right now to make it more 
explicit, but kids with disabilities are more able to get 
vouchers. The courts have ruled that a computer is religious 
neutral, it is the software that is not. So Catholic schools 
are eligible for that type of thing.
    Be very careful with touching it, as you could hear from my 
types of questions. This is very, very explosive. But was 
important to get into the record, which we were doing here, is 
how much your faith is completely integrated in your 
programmatic, and also how your supporters are completely 
integrated into that mission. And that if we take action by the 
Federal Government that move faith-based organizations into the 
arena of public funding, that where we touch--he who pays the 
piper picks the tune, for all told guys, a statement. Raising 
the question of who is the piper and what is the tune. But this 
is a very difficult question.
    But what we have in front of us and you have stated this 
today, is--and this is what is so important about your 
testimony and as we hear from the next panel, is that you have 
people who have said we will step forward, we will reduce the 
class size for the highest risk. We will try to take on kids in 
probation, we will try to help somebody rehab their house. How 
can we leverage that at a time when the bulk of the people are 
saying what are we going to do to help these people. There are 
people coming forth saying we are doing it, we want to do it 
and what we are wrestling with right now is how do we highlight 
that, that across this nation, thousands of people are doing 
this and how do we have this mismatch between the rhetoric in 
the debate and these nuances of how you implement this. I hope 
we can win the point on if there are choices, there should be a 
voucher, but the term is so explosive any more.
    Any closing comments any of you want to make?
    Rev. Denson. I would just like to thank you for the 
opportunity and privilege to be here this morning to speak to 
faith-based initiatives.
    Rev. Rowley. One of my favorite quotes is as I was 
preaching that it could not be done, I was interrupted by 
someone doing it. I think that is well spoken on your part.
    Dr. Martin Luther King, Jr. said our lives begin to end the 
day we become silent about things that matter. That is our 
hope, that we continue to keep life alive.
    Mr. Souder. Well, thank you. I thank you for your work at 
racial reconciliation as well. I think that is important around 
the country and I do not think Christ would have seen colors or 
ethnic backgrounds and it is real important that we all work 
together.
    Thank you very much.
    If the second panel could come forth. If you can remain 
standing, I will administer the oath. Let me see, we have Mr. 
Kirk and Mr. Lanz, right? Will you raise your right hands?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative.
    Thank you for joining us this morning and we will start 
with Mr. Kirk the director of the Family Foundation Fund from 
Nashville, TN, who presumably got here in a shorter route than 
we did. We kind of looped around, we got lost.

STATEMENTS OF ONNIE KIRK, DIRECTOR, THE FAMILY FOUNDATION FUND, 
  NASHVILLE, TN; AND JOHN LANZ, CORRECTIONS CORP. OF AMERICA, 
                         NASHVILLE, TN

    Mr. Kirk. We are blessed and honored to be here today and 
we do appreciate both of you inviting us to be here to speak on 
behalf of faith-based initiatives.
    As you know, the name of our organization is the Family 
Foundation Fund, and the Family Foundation Fund was started 
because we saw the absence of fathers in America. And then 
after seeing the absence of fathers, we began to study the 
spiritual principles of what happens when there is not a father 
in the home.
    In America today, there are 35 million homes that do not 
have their biological father there to cover and to oversee and 
to nurture the souls of the children in that home. That has 
grave implications. One thing about our Nation, this Nation was 
built upon the principles of God's word--it was built that way. 
Even in the Declaration of Independence, I hold these truths to 
be self-evident, that all men are created equal and are endowed 
by our Creator, which is God, to certain inalienable rights.
    Yet, if we do not adhere to the principles of God's word, 
then we find that what happens is God's judgment or we can use 
the word curses, are implemented when we do not adhere to God's 
principles.
    He called fathers, he said, ``Fathers, nurture your 
children and bring them up in the fear and the admonition of 
the Lord.'' Well, if you have 35 million homes, you know, where 
the biological father is not resident, what happens to that 
household? We can look at history, history bears record of the 
spiritual truth of when a father is absent, what happens.
    Psychologists today will tell you that a child's identity 
is shaped by his father. Now in the black community, 70 percent 
of the homes do not have fathers in residence. What happens to 
the child's identity if there is no father there to shape that 
identity?
    In history, we see people like--I guess to go back in 
history--Adolf Hitler, his father was absent at age 13; Joseph 
Stalin. Adolf killed 10 million and Joseph Stalin--I mean Adolf 
killed 6 million and Joseph Stalin's father was an alcoholic 
and divorced his mother when he was 8 years old. No father 
there, he goes out and kills 10 million.
    We can bring it more recently. Saddam Hussein and both 
Yasar Arafat were orphans. The spiritual implications of the 
father being removed is traumatic in terms of what happens to 
the soul of the children.
    So we started the Family Foundation Fund with the 
understanding--I mean we can even bring it to our own living 
rooms--Dennis Rodman, his father actually said that his whole 
goal in life was to father as many children as he could. At 
that point that I heard this on TV, he had fathered 30 children 
by as many different women. Howard Stern's father referred to 
him as a piece of excrement, that is the only way his father 
ever referred to him. Now you think about this. What has 
happened to the souls of these men or these children when the 
father is not there?
    Becoming aware of this spiritual principle, in 1993, we 
began the Family Foundation Fund. And the mission of the Family 
Foundation Fund is the restoration of fatherhood, realizing 
that God created us as tri-human beings--we are spirit, we are 
souls and we are bodies. If we do not deal with the spiritual 
part of who we are, then we cannot correct those other two. 
That is just not going to be. God established us as a tri-human 
being. The Family Foundation Fund focuses on the tri-human 
being of the children that we mentor.
    Now our program is geared toward young men because we 
firmly feel if we can get the young men right, then they will 
grow up--they will not father children out of wedlock, they 
will not abuse their wives, they will care for their family, 
they will protect their family and do the things that God has 
said for them to do.
    So we focus on young men, but we have had the opportunity 
to have a couple of young ladies participate in our education 
program and I was so glad to hear about New Hope Academy 
because one thing that we do, we fund our children in private 
Christian education. We raise the funds from the private sector 
to pay their tuition for them to go to private Christian 
schools. In the process of doing this, some of the boys had 
sisters, so we funded them through private Christian education 
as well. We have not been able to help hundreds of students, 
the program has had 26 students participate.
    Of the five who have graduated the program, all five of 
them have made commitments to Christ, to the Lord Jesus. None 
of them have fathered any children out of wedlock. As far as we 
know, none of them have been on drugs and all of them completed 
their high school education. Three of them have gone on to 
college and one is working full time and one is getting ready 
to go into the U.S. Coast Guard.
    Now interestingly enough, two of those students come from a 
generation wherein three generations, no one finished high 
school. Yet, because they had a father figure who encouraged, 
who affirmed, who blessed them, they were to steer the course 
and complete high school and to go on and are in the process of 
building a successful life.
    The Family Foundation Fund, what we do, we engage the 
community of Nashville. During the summer time, our boys have 
the opportunity to spend 3 days with a business professional, 
whether it is a real estate person, a banker or whether it is a 
brick mason, a lawyer, a doctor. They have that experience to 
go and be with that business professional for 3 days to see 
what a man does in his life. Also, each Friday, they experience 
what we call a recreation day where they go boating or they may 
go to an amusement park or they may go swimming, but they do 
something entertaining, something to broaden their 
understanding. We have even had the opportunity to take them on 
enrichment trips down to Orlando and up to Dollywood and this 
year, we plan on taking them to New York City to see Ground 
Zero and the United Nations. But expose them to see that there 
is more to life than just their neighborhoods.
    The participants in our program, if the income for their 
family is below $35,000 a year, there is no fee for the 
program. If it is above $35,000 we do have a program fee on a 
graduated scale, but there is only one student in the program 
that is paying a fee and that is $77 a month. He lives with his 
grandmother and she does earn over $35,000 a year, so she is 
able to help and willing to do that.
    In looking at the program, we believe that by giving them 
Christian education, it re-enforces what we teach them from the 
Bible. They go to a school where Jesus' name is lifted up and 
where they understand that God's law and his principles are 
eternal, whether it is for a government, whether it is for a 
household, whether it is for a school system, the principles of 
God are eternal and they do not change.
    Mr. Souder. Thank you very much for your testimony.
    Mr. Lanz.
    [The prepared statement of Mr. Kirk follows:]

    [GRAPHIC] [TIFF OMITTED] T9770.011
    
    [GRAPHIC] [TIFF OMITTED] T9770.012
    
    [GRAPHIC] [TIFF OMITTED] T9770.013
    
    [GRAPHIC] [TIFF OMITTED] T9770.014
    
    Mr. Lanz. Chairman, Congressman Blackburn, it is a pleasure 
to be here representing Corrections Corp. of America--good 
morning.
    Let me start off by simply saying that Corrections Corp. of 
America is a private prison company that designs and manages 
correctional facilities, primarily adult men and women jails 
and prisons and some juvenile facilities. Within this company--
and it was founded by several gentlemen--Mr. Don Hutto, Mr. 
Beasley--they felt very strongly that programs was a big part 
of what we do with the lives of the offenders. And in the 
Inmate Programs Department at our facility support center here 
in Nashville, our corporate headquarters, we have an Inmate 
Programs Department that designs and manages and oversees, 
supports various programs, whether they are educational/
vocational programs, addiction treatment programs, but as well 
as special programs such as prison industries where companies 
come in and employ and train inmates.
    But also we have religious programs and spiritual programs 
in our correctional facilities. And in our facilities, we have 
chaplains that provide and coordinate, if you will, these 
services.
    What I think our company has found is that in partnership 
with government, the offender is our product and we know truly 
well that within 3 years, the great majority of these offenders 
will be released back into the communities and so, therefore, 
what you are looking for is change. You are looking for change 
where the offenders will not recidivate, they will not recommit 
more crimes and victimize society.
    Having said that, it has always been important for CCA to 
employ chaplains that are trained to administer not only to the 
offender in our facilities, but as well to our staff--staff and 
offenders.
    Now the last several years--and it truly is the pleasure--
my company has asked me to work on special programming and we 
have been able to partner with a number of mainstream 
ministries and establish some wonderful faith-based 
initiatives. Not to supplant our programs, but to enhance our 
programs because what we are finding is that we can educate our 
inmates, we can address their chemical addiction issues, we can 
address their employability issues, even their social issues, 
their cognitive critical thinking issues. But to heal the 
offender, to make a difference in them, we have found that we 
need to change them in their soul, in their heart, to heal with 
the anger that they have, with the resentment they have toward 
society. Because they have had problems obviously fitting into 
what we call mainstream America. They are missing out on the 
dream.
    Now let me share with you some of the faith-based 
initiatives that I think our company is real excited about 
partnering with. Many of you have heard of the Bill Blass 
Champions for Life. This is an organization that was founded 
specifically to establish what we call Weekend of Champions or 
Day of Champions, with a followup program. It is Christian, 
Biblical, but it is also very voluntary. Offenders of all 
faiths can volunteer and attend these programs. Champions for 
Life in the next few years will be providing comprehensive 
programs in addition to followup programs at all of our 59 
facilities, which we think has the potential to impact close to 
60,000 inmates and about 12,000 staff as well, because those 
program have an impact on our staff.
    Another wonderful mainstream ministry that we have recently 
announced and partnered with is an organization whose primary 
mission is to provide chaplains, trained chaplains, with 
wonderful programs and training programs. This organization is 
called Good News Jails and Prison Ministries. And that is what 
they do, they provide chaplains to work with the offenders, 
male and female offenders, in the prisons or jails or juvenile 
facilities.
    Our chaplains along with Good News Jails' chaplains 
facilitate the spiritual beliefs of all mainstream religions. 
So whether they are Christian, whether they are Jewish, whether 
they are Muslim, regardless, if they are recognizable 
religions, they will facilitate and encourage these religions 
to come in and administer to the population.
    Another organization that you may have heard--and they are 
established throughout the country--is Kairos Horizon--and I 
will say Kairos. It had its beginning some 46 years ago and 
there is an organization that is part of it that is called 
Kairos Horizon. What this organization does is they recruit 
volunteers and they come in and set up weekend programs--
conduct weekend programs and establish what we call faith 
communities in our correctional facilities that encourage the 
offender to participate in all programs, but to grow because 
they are exposed and have a chance to discuss and hear 
testimony regarding Christ and his teachings and so forth. 
Again, this is a voluntary program, all of our programs are 
voluntary.
    There is another faith-based initiative that has been 
around for a long time, very, very successful in this country 
and it is the Bill Gothard's organization out of Chicago, the 
Institute for Basic Skills. What they have done is have 
established seminars throughout the country in cooperation with 
churches, but they have what they call a Christian prison 
ministry where they come in and, via seminars, they can 
establish weekend or day programs, followup programs. Most 
importantly, they also assist our facilities in establishing 
what we call faith communities. This is where you take 
offenders and you locate them in a particular pod.
    Right here in Nashville, there is another wonderful faith-
based organization that has been very active in the southeast 
with churches providing seminars and that is called Field 
Therapy. Field Therapy under the leadership of Valena Darr, 
again very Biblical, but they work inside of our Metro 
Detention facility here in Nashville. This is their second year 
of operation. The wonderful thing about this organization is 
that they establish the pods, the offenders experience weekend 
of religious experiences, evening groups and small group 
discussions and individual counseling by volunteers. And then 
upon being furloughed or released, paroled, what-have-you, in 
the community, via local volunteers, if the offender so 
chooses, can participate in a program where the local churches 
provide volunteers to more or less mentor and work with the 
offender and his family or her family and try to help them 
adjust to society and that sort of thing.
    Last, but not least, another mainstream ministry that has 
been around a long time and it focuses on disability--Johnny 
and Friends Wheels for the World. And what this organization 
does is it establishes programs at our correctional facilities 
where the offenders rehabilitate, if you will, wheelchairs, 
walkers and crutches and these disability instruments, if you 
will, are provided for Third World countries throughout the 
world.
    The bottom line is this--I notice the red light is on, but 
the bottom line is this--all of these mainstream ministries 
work with our staff and our chaplains in these faith-based 
initiatives to recruit, retain volunteers that enhance our 
programs. We are real proud of our academic, vocational and 
rehabilitative programs, but without these faith-based 
initiatives that address the spiritual needs of the person, 
true healing does not take place.
    I could share with you some success stories, one perhaps by 
Kent Lucas with Champions for Life, but given the time 
restraints; thank you very much.
    Mr. Souder. Any of that you want to submit for the record, 
like that story or the notes you were working from, if you want 
to give us that, we will make sure we put that in the record as 
well.
    You said Keros Horizon?
    Mr. Lanz. Kairos.
    Mr. Souder. Could you spell that?
    Mr. Lanz. K-a-i-r-o-s.
    Mr. Souder. And could you clarify again for me, you said 
you have 59--you operate 59 facilities with 60,000 inmates?
    Mr. Lanz. Approximately 60,000.
    Mr. Souder. Are you a contractor?
    Mr. Lanz. We are a private prison company traded on the New 
York Stock Exchange that partners with Federal, State and local 
government to provide facilities to protect society and to 
rehabilitate offenders.
    Mr. Souder. Do you build the facilities as well?
    Mr. Lanz. We have, yes.
    Mr. Souder. So you may or may not build but you always 
contract.
    Mr. Lanz. We are capable of designing and building, yes.
    Mr. Souder. And does the State, local or Federal Government 
contract with you by number of prisons or for a particular 
court or for a region? How does that----
    Mr. Lanz. How typically it works, whether it is Federal, 
State or local government, they will put out an RFP, request 
for proposal. We are in competition, we will respond to the 
proposal and if so chosen, we will either design, build and 
manage the facility. And what happens in this particular 
situation, we have like a management contract, we receive a per 
diem for the number of inmates that we work with and take care 
of.
    Typically, like I said, the programming that is included is 
chaplain and religious services.
    Mr. Souder. The last part, I want to make sure I understand 
the concept, so my questions are on point.
    Do you provide guard protection, food----
    Mr. Lanz. Yes, security.
    Mr. Souder [continuing]. All that. And are they non-violent 
or violent or----
    Mr. Lanz. Minimum to medium security, typically.
    Mr. Souder. Adult and juvenile?
    Mr. Lanz. Adult and juvenile.
    Mr. Souder. Men and women?
    Mr. Lanz. Male and female.
    Mr. Souder. And how many States are you in?
    Mr. Lanz. About 20 States at this time. Do not quote me on 
that.
    Mr. Souder. Is your corporation based in Nashville?
    Mr. Lanz. Yes, sir, it is.
    Mr. Souder. And is it dominant more in the south or are 
your 20 States pretty spread?
    Mr. Lanz. We are spread out as far as Montana to the tip of 
Florida to the tip of California. And I would say predominantly 
in the southeast.
    Mr. Souder. And are some of these groups that you talked 
about, the Kairos Horizon, the Good News Jails and Prison 
Ministries, Champions for Life--are they predominantly serving 
your facilities or are they broader as well.
    Mr. Lanz. Very good question. I think all of these 
mainstream ministries to a degree have relationships with 
Federal and State governments. As far as other private 
companies, prison companies, I am not certain about that.
    Mr. Souder. And do they get paid by you and your 
organization?
    Mr. Lanz. These organizations are all 501s, non-profits, 
OK? And in partnership with them, CCA makes a contribution. 
When we pull these programs in or these providers into our 
facilities, it is at no additional cost to government. For 
example, we may have a chaplain position that is provided by 
the per diem. OK? And if we choose to work with Good News Jails 
and they provide one of our chaplains, they would receive those 
funds typically, but at no additional cost to government.
    Mr. Souder. And do you get paid the per diem--your goal is 
to rehab--this is not a trick question, I am not trying to get 
any kind of answer. Your goal is to keep them locked up and off 
the street during the period of time that they are in your 
custody, but you would like to have the additional goal of 
rehabbing, is that----
    Mr. Lanz. It is our goal, those two components. Our mission 
is to obviously serve government and protect society, OK? So 
our customer is government, but our product is the offender. 
And given the fact that within 3 years research is showing that 
the great majority, upwards to 55-60 percent of those offenders 
will be released, part of the reason we are having this 
overcrowded situation and what-have-you is that there is a 
serious problem with recidivating, inmates or offenders 
recidivating. So therefore, we look at the results for 
accomplishing and shaping our product, if you will.
    Mr. Souder. But you get your per diem based on the period 
of time they are with you, not whether they have been rehabbed 
or what-not.
    Mr. Lanz. That is correct.
    Mr. Souder. Mr. Kirk, I have run over here. I am going to 
yield to Ms. Blackburn in just a second.
    You said you were founded in 1993?
    Mr. Kirk. Yes.
    Mr. Souder. Is it predominantly yourself, do you have staff 
with this too?
    Mr. Kirk. There are three of us full time--our mentoring 
coordinator, who deals directly with the boy and his biological 
family, his church family and his surrogate father family. See, 
each one of the boys has a surrogate father and that surrogate 
father is a Christian man who believes in the word of God, who 
raises to boy spiritually. Now the boy does not live with him, 
but we ask them when we orientate the surrogate father if they 
will pray for that boy every day as they do their own children. 
And that when there are issues and situations come up, you 
know, that they would use the word of God as the foundation. 
Like if the boy says I cannot do this, you know, they will say, 
Christopher, the word of the Lord says you can do all things 
through Christ. So you can pass this math test if you really 
get down to it and study. So the surrogate father is there to 
be the father in his life.
    When the boy turns 13, we have a--I guess in the Jewish 
culture they would call it like a Bar Mitzvah, but we call it a 
passage to manhood. And that surrogate father is there to pray 
over that boy and say I will be with you, son, all the way 
through.
    And even after the program is over, after they graduate, 
their senior year, our hope and what we have seen thus far, is 
that the boys stay in relationship. I just heard from a 21-
year-old--Tennessee interviewed him yesterday, he is now a 
junior at MTS University and he said that had it not been for 
the Godly men in his life, that he would not have made it and 
he still today is abstaining, even though there are many sexual 
pressures. He today says I will go to my marriage bed a virgin.
    Mr. Souder. Are you based primarily in Nashville?
    Mr. Kirk. Only in Nashville, with hopes of some day being 
able to expand to other areas.
    Mr. Souder. Thank you, I will yield to Congressman 
Blackburn.
    Ms. Blackburn. Thank you, Mr. Chairman. And I do have a few 
questions I want to ask and then I have to move on to meet the 
Secretary of Labor who is here with another group of our 
Tennesseans. And thank you to both of you so very much for 
being here today to provide some testimony and some background.
    Mr. Kirk, I will continue. How many have been in your 
program since it started?
    Mr. Kirk. The total number is 26.
    Ms. Blackburn. Twenty-six.
    Mr. Kirk. Right.
    Ms. Blackburn. OK, and you have five that have just 
graduated?
    Mr. Kirk. Have completed the program, right.
    Ms. Blackburn. OK. And what has been your success rate? I 
mean once they have come in, how many have you lost out of that 
program, the ones that initially applied?
    Mr. Kirk. Of the ones who initially began, we have lost 
seven.
    Ms. Blackburn. Seven, OK. And you spoke a little bit about 
the type mentoring activities that you are--with the 
recreational activities and----
    Mr. Kirk. Right.
    Ms. Blackburn [continuing]. And going to work. Now do you 
have any educational tutoring?
    Mr. Kirk. Yes, for each one of our boys, we put them 
through Expressways to Learning.
    Ms. Blackburn. OK.
    Mr. Kirk. And I do not know if you are familiar with it, 
but----
    Ms. Blackburn. Yes, I am.
    Mr. Kirk [continuing]. But it addresses the learning 
deficiency that the boys have. We fund that for them. And then 
as I mentioned, they go to private Christian schools, but if 
there is still a challenge academically or they are behind, we 
provide them with one-on-one tutoring.
    Ms. Blackburn. OK. And with your funding, is 100 percent of 
your money privately raised?
    Mr. Kirk. It is privately raised, grants and foundations 
and so forth. In fact, CCA is one of our supporters.
    Ms. Blackburn. OK. So you have no government funds.
    Mr. Kirk. No government funds at all.
    Ms. Blackburn. OK. Do you have any program alums who are 
now mentoring other young men?
    Mr. Kirk. None as of yet, none of them are old enough to be 
fathers yet. We have them in college, you know, but until they 
are old enough to finish and get into their career--we have had 
those boys who are in the program, who have said we look 
forward to coming back and helping others, but none of them are 
of that age yet.
    Ms. Blackburn. OK, great. One other thing, as the young 
people are in the program, do you help them find jobs or----
    Mr. Kirk. Exactly. They come into our program at age 10.
    Ms. Blackburn. OK.
    Mr. Kirk. Because that is a very crucial time. Even though 
they have been with their mother up to that point, at the that 
time, most of the mothers will tell you, there is an anger and 
there is a restlessness that begins to develop around that age 
because there is no man there. We select the boys and bring 
them in at age 10 and the first 4 years, they participate in 
like the mentoring experiences with the different men and so 
forth, but at age 15, Secure Pharmacy is one of the companies 
that lets them come in and work, and Vanderbilt University, 
Equinox Systems--at age 15, they are able to begin earning an 
hourly wage on internships during the summertime.
    Ms. Blackburn. OK. Same question for you I have asked all 
the others, do you believe that a faith-based organization 
would lose its identity by accepting government funds?
    Mr. Kirk. I must answer that very honestly. In my 
testimony, I put there is a difference between a faith-based 
organization and a Christ-centered organization. And that is 
critical, because we know that his word says that he who denies 
the son is antichrist, you know, that is what the word of God 
says. We cannot go around--our whole Nation is built upon his 
word.
    If an organization receives from the government, as long as 
what--I think Pastor Denny said earlier--as long as there is 
not a lot of hidden clauses and things that cause them to say 
we have to hire this type person, you have to do that. As long 
as they can have their independence to follow Christ, I do not 
see any problem.
    Ms. Blackburn. OK, great.
    Mr. Lanz, you have mentioned the six programs that you all 
are working with and I think Field Therapy is one that you 
mentioned that deals with the family. Do any of the others have 
a specific mission to address the family of the inmate or the 
children of the inmate?
    Mr. Lanz. Absolutely, they do. The Kairos Horizon, the 
Institute, Field Therapy; in particular, those three have 
strong programs in parenting and working with the offender to 
help them return to their families upon being released and have 
a better understanding of the dynamics of family and the 
important role that they play in that family.
    Ms. Blackburn. OK, great. Same question for you, do you 
think that a faith-based organization would be compromised by 
accepting government funds?
    Mr. Lanz. No, I do not. But I will tell you this, there are 
several organizations here; for example, Good News Jails and 
Prison Ministries, as a policy do not accept any Federal 
moneys. They have donations and this sort of thing, even 
contributions that CCA makes, but they do not accept or look 
for government funding.
    Ms. Blackburn. Thank you. Mr. Chairman, I thank you and I 
thank these witnesses, and if you all will excuse me. This is 
very much like it is in D.C., sometimes we feel like we are 
floating in and out of all sorts of meetings and going from one 
to another, but I do need to move on and meet the Secretary of 
Labor for a few minutes before I head back into D.C. So I thank 
you all very much for your participation. I thank you and the 
staff.
    Mr. Souder. Thank you. We will see you later tonight.
    Ms. Blackburn. Thank you, yes.
    Mr. Souder. I have a couple of additional questions that I 
would like to followup with.
    There is not any way around to say this, I thought you had 
a great statement, the difference between faith-based and 
Christ-centered. When you take government money, there will be 
restrictions. The only question we are debating in Washington 
is how much and how many restrictions there will be. That has 
to be--we have a really active faith-based community in my home 
district and around the country and a standard concern is--
well, as long as we do not get any restrictions--no, no, that 
is the definition. The courts already ruled that there will be 
restrictions. The question is--and I believe one of those 
restrictions will be that if you have Federal money, you are 
not allowed to pray, which is what the questions are--because 
the court has already had some preliminary rulings that suggest 
that is the way they are going to go.
    Now a voucher program would get around that because if 
there are choices for the individual and the court has not--I 
believe, based upon having worked this for about 15 years and 
nobody really knows because only a few cases have gone to 
government. The danger that we are in right now, and the 
prisons are a classic example of this, is that we may have 
been, in trying to call attention to how to advance and have 
more integration with faith, we may force some programs to back 
up from where they have been. Now that does not mean, quite 
frankly, that you cannot--in other words, you could have a 
program on self-esteem and then if they want to know more about 
why you are different and unique, you could have a prayer 
session before or after that was paid for with private funds 
and the other part paid with the government funds. We deal with 
this in other categories, and this is where we are going to be 
working through the details.
    But what we are hoping to bring out in these hearings, and 
today has been a very good example of the dilemma we are 
facing, is many of the most effective programs--and I want to 
repeat, the difference between faith-based and Christ-centered 
is critical, because if faith stays vague, you can probably 
move through, but to the degree it goes specific, then all of a 
sudden, the government gets all nervous and yet, it is the 
programs that are--there are faith-based programs that 
currently get government funds, as long as you do not get 
specific. The challenge here is that many of the best results 
and the ones where people put their money are the ones that get 
specific.
    Mr. Kirk. Right.
    Mr. Souder. I have a couple more specific questions for Mr. 
Kirk here I want to followup with.
    Do you have waiting lists to get into your program?
    Mr. Kirk. We do have applications. We do not accept kids 
until we find a surrogate father, a man who can walk with that 
child.
    Mr. Souder. Obviously there are more than 26 kids who would 
love to be in a program like this.
    Mr. Kirk. Yes.
    Mr. Souder. And is it widely known? In other words, do you 
get lots of people calling to say can I get my 10-year-old into 
this?
    Mr. Kirk. It is known in the city, because we have high 
profile people involved with us like Dave Ramsey, he is one of 
the surrogate fathers; Hal Hadden is a surrogate father--these 
are very high profile people, so it is known in the city and we 
believe that where we are now is getting ready to go to the 
next level, meaning that we have a more public venue than we 
have had in the past 9 years. So consequently, we are getting 
more people inquiring and we are getting men who are saying 
what do I have to do to be a surrogate father, because the 
surrogate father is the key. Ours is a one-on-one for the soul 
of that young man, and all who have seen the result realize 
that--one young man--quickly--his mother is on the streets, a 
drug addict, his grandmother is in and out of the hospital with 
all kinds of sicknesses. And that young man, he is flourishing 
because his surrogate family not only are there for him, 
calling him and talking to him, but they allow him to live with 
them Sunday night through Thursday night so he is living in an 
environment where someone loves him. They are white and he is 
black, you know, but it is wonderful to see what is happening.
    I do not know if you saw it on the brochure, but if you 
look on the brochure, you will see many of the surrogate 
fathers are white and the boys are black, but we have both 
white and black in the program. In fact, one of my surrogate 
sons who just graduated is white and he is the one that is 
going on to the Coast Guard this August.
    Mr. Souder. What is roughly your annual budget a year?
    Mr. Kirk. Around $300,000.
    Mr. Souder. So the cost of this investment times the number 
of kids is high.
    Mr. Kirk. Yes. In fact, just the hard costs, just the 
tuition, insurance, transportation, those kinds of things are 
$9,200, but with administrative costs, it is about $18,500 per 
child.
    Mr. Souder. Per year?
    Mr. Kirk. Yes.
    Mr. Souder. So if they are in 8 years, you are talking an 
investment of over $150,000.
    Mr. Kirk. Yes.
    Mr. Souder. And some would say that any program could be 
fairly effective if you spent that much per----
    Mr. Kirk. Exactly. That is one of the major challenges we 
have in the public, because people are looking at numbers but 
when they begin to look at the results, they say wait--the 
State pays $46,000 a year for every child in State custody, you 
know, because I have talked to the Secretary of Child Services. 
He says we get nowhere close to the results that you guys are 
getting, yet they spend over three times as much money.
    Mr. Souder. Would you say in the criteria for the kids that 
come into your program, that most of them would be in that 
Federal program or do you think----
    Mr. Kirk. A lot of them would be, yes.
    Mr. Souder. Because one of the problems we have in 
government, in trying to figure out how to fund this is that if 
one of five who are at risk go in, you would have to take one 
out of five of that cost of 46 to get down to your annual.
    But I find another interesting thing, and that is dealing 
with businessmen, looking at the mix, that there is another 
dynamic going on here that we have to understand in the faith-
based area and in government, and that is people are willing to 
invest this amount of money in a program like yours, and it is 
not just because of the success/failure rate, it is because of 
an intangible. And that is the faith component.
    Mr. Kirk. Yes.
    Mr. Souder. In other words, from a pure government 
standpoint, it is not clear that investing the same amount of 
money would (a) bring the same return because you are trying to 
transform a person, you are mixing it with volunteer labor, so 
in addition to your $9,200 and your staff cost, you have a 
volunteer cost in there that probably does take that up to 
$46,000 a year, if you actually figure it out.
    Mr. Kirk. Yeah.
    Mr. Souder. The dollar amount, particular what some of 
these guys make.
    Mr. Kirk. Yes.
    Mr. Souder. And time commitment in the evenings, which 
would be overtime in a lot of cases for government employees, 
weekends, the mentoring time is critical. And when we are 
trying to do these pure financial comparisons, I find it 
interesting because those things--if you could maybe talk to 
some people in your organization and figure out what the 
volunteer time and the hours are to coordinate that, as to what 
the kind of contributed, in addition to your cash privately 
raised funds, what the volunteer hours--so if we did this in a 
government way, what would that cost be.
    But there is an intangible, because people are saying if I 
can transform a soul----
    Mr. Kirk. Right, exactly.
    Mr. Souder [continuing]. It is worth $1 million.
    Mr. Kirk. Yes.
    Mr. Souder. And that is hard to quantify in a public debate 
because it may not save the taxpayer $1 million, but, you know, 
a soul is priceless.
    Mr. Kirk. Yes.
    Mr. Souder. And so some individuals would say this is my 
contribution that I want to leave and I am willing to go for 
really a priceless return, whereas I would not give that in 
taxes or to the government because while I might have the 
person stay out of jail and maybe they can hold a job, they 
will not have transformed their soul and their community. 
Therefore, I will give my money to do that, but I will not 
forcibly take my money to give that. And that is an intangible, 
as we work this through.
    Well, I hope you can continue to expand. In the mentors, 
could you describe some of the struggle of finding mentors in 
today's society?
    Mr. Kirk. One that you just mentioned, the time issue. That 
is generally the major question when we present this to men's 
groups or churches and whatever. One of the major questions I 
get from men is how much time realistically are we talking 
about. I say as far as what we can tell you, you know, we do as 
that you are in contact with your surrogate son every week, 
especially by phone. But then if you are able, when he is 
having a basketball game or he is being presented with an award 
or certificate at school, we want you to be there. We certainly 
want you to remember his special days, like we had a boy whose 
father was killed the very night he went to spend a week with 
his surrogate family. You know, that was hard, he went to spend 
the night with them and the very night, his father had got out 
of prison about 3 weeks before, he was shot and killed.
    Fortunately, he was with the surrogate family, who affirmed 
him, but that is always a real hard time for him every time--it 
was in June and it is always a hard time. In that the surrogate 
father is aware of that, he is able to say look, I know what is 
going on, you know, remember that the Lord is able to let him 
be your peace and your refuge. There are those times.
    So I always tell them, I say you want to love him like you 
do your own children, obviously you cannot be with him every 
day, he is not in your house every day. But if you will give 
some time in praying for him every day, the affirmative, 
effectual prayers of a righteous man availeth much. I say 
either you believe that or you do not. Pray for him every day. 
And then be involved with his life.
    Now the other thing is often I get the question, well, if I 
am of a different race, culturally how is this going to work. I 
say love has no boundaries, it does not. These boys, yeah, it 
is going to take you a year probably, about a year and a half, 
before they actually begin to really bond with you. It is for 
the long haul, even after they graduate, you want them to be 
calling you back and saying what's going on in their lives, if 
they have a question, you know. Hey, Mr. Onnie, what about 
this, how do I handle this--those kinds of things.
    So I would say the main question is the time and the 
question of can I culturally be the father to this young man. 
One of our surrogate families lives--I do not know how much you 
know about Nashville--but one of them lives in Belle Meade, 
which is the old money area of Nashville. The boy lives in 
Edgehill Projects. I mean the disparity there is great, yet 
when they come together, it is a father and son. And they know 
that.
    So I guess the issue, the main thing is the time 
commitment. But the Lord has been faithful, you know, in 
bringing men, like I say, who are high profile, who see the 
need. And I think part of their reason for coming along, they 
say if we set the example, there will be other men that follow.
    I do not know if you are aware of this, Congressman, but 
the faith-based initiative thing--and this is just for your 
information and wherever you are leading in this--our Nation 
needs to be aware of the spiritual principles because let us 
say that we fund something that is antichrist, it is not going 
to bring a blessing on our Nation. If we begin to fund 
something that denies Christ, denies the Lord, even though how 
wonderful faith-based may be, the word of God says that is 
antichrist and we have to be aware of that, even though some 
good things may come out. We cannot go against his word and his 
principles.
    Mr. Souder. My dilemma is that we are already funding 
billions of those things. The question is can we get any faith 
extended in that.
    I strongly believe that the tax credit, tax deduction way, 
is the strongest because then you could----
    Mr. Kirk. Yes.
    Mr. Souder [continuing]. Go to your supporters and say you 
can get an additional tax writeoff for aiding this and then you 
do not have the controls. Also, some of the training funds with 
it.
    But we are experimenting with the other and we will see if 
it works. Where there are secular choices and you can get a 
voucher and not have the restrictions. But I am concerned, I 
have kind of looped twice on this issue over the years, as we 
work this through with the particular challenges, and we all 
understand that mentoring is the golden solution, if we could 
find enough dollars and costs and volunteers to do the 
mentoring. Most people are so exhausted, but you can see, 
particularly--and we are trying to address these things in our 
welfare reform where we have in effect given incentives to 
destabilization of families over time and we are trying to 
readdress that, but when you go--often kind of the unknown 
phenomenon in America is the growth in middle class black 
families and other minority families, but where they have been 
left behind, it is now more dramatic because those areas are 
often 80, 90, 95 percent--it is not that there is not a male 
presence, it is that they change all the time, there is not the 
biological continuity of a father in the family. And those high 
risk kind of underclass is the traditional--where there is not 
a father present is just a huge challenge and often it is the 
school principal or a teacher or a coach or somebody who 
touches them. How to figure out how to do this in an effective 
way--just one by one, I have--probably the most astounding 
school I was in was Joe Clark's, the guy with the baseball bat 
that they made the movie about.
    Mr. Kirk. Yeah.
    Mr. Souder. And everybody kind of made him out to be--not 
everybody did, but many people thought he was kind of a 
villain, what is he doing with a baseball bat, but the barbed 
wire around the school, they were dealing drugs every which 
direction, you had four teachers raped in one stairwell and you 
cannot have the kids who want to learn, learn, if there is no 
order.
    Mr. Kirk. Right.
    Mr. Souder. But in walking around the school with him--
today they have 400 kids in that school--he knew a high 
percentage of those kids' names and you could see they would be 
at their lockers or in the hall looking to see if he mentioned 
them by name. And in so many cases, he was like their dad.
    Mr. Kirk. Yes.
    Mr. Souder. And how we can address that question and 
recruit more people to do that is one of our huge challenges 
because there is a hunger for love that is incredible in areas 
where there is a lot of turnover, and I just want to commend 
you and your volunteers with that. We are trying to look at 
creative ways to do it, but you have a--I do not want to see a 
program like yours compromised in its effectiveness.
    Mr. Kirk. Can I say that in the testimony, I list people 
like Dave Townsend who started Wendy's and Denzel Washington, 
Booker T. Washington, George Washington Carver, Mark Twain--
many of them did not have their biological fathers but they 
went on to have very successful and progressive lives. And what 
you just said, the issue, the very last scripture in the Old 
Testament says ``I will turn the hearts of the fathers to the 
children and the hearts of the children to their fathers; lest 
I come and I will strike the earth with a curse.'' That is the 
very last thing he said in the Old Testament because he 
realized that the identity of that child without the father 
would not be shaped, or a father figure, you know, a pastor, a 
coach, a teacher.
    If that could some way get to the Nation where they would 
understand, I think we have enough people in this Nation who 
would believe the word and say look, that is what we are 
supposed to do, that is James 1:27, pure religion undefiled, is 
to get at the fatherless, the orphans and the widows in their 
trouble. That is what it says.
    Let us do it and let us change our Nation. The statistics 
speak for themselves. I do not know if you had a chance to read 
the testimony, but it talks about 63 percent of the rapists are 
fatherless. It goes on and on about what has happened because 
of fatherless men.
    So thank you for allowing me to come and share. Hopefully 
it helped in what we are trying to do in the Nation.
    Mr. Souder. Mr. Lanz, I have just a couple more questions 
and then we will wrap up here.
    Could you provide us with a list--you do not have to 
today--of in these different organizations you have enunciated, 
how we can get in touch with them, get materials from each of 
them, where you think their three to five best examples are in 
the country. In other words, if you are in 28 States and have 
59 facilities, where would the three to five best be of 
Champions for Life, the Good News for Jails, the Horizon group, 
the where has Gothard interacted with your group, is it Johnny 
and Friends, is that----
    Mr. Lanz. Johnny and Friends, uh-huh, Wheels for the World.
    Mr. Souder. Is that Fran's or Friends?
    Mr. Lanz. Friends.
    Mr. Souder. OK, that in identifying where these programs 
are in two ways; one, that if you could show us here is one 
where they really seem to have some results, here is one where 
we have a dynamic leader, here is one--a little bit of 
diversity of the types of prisons. You know, some maybe are 
more toward juveniles, some toward adults, some criminal, more 
violent, less violent. So we can--one of the main ways we are 
going to approach through our hearings will be in getting the 
testimony from the Houston Prison where Prison Fellowship has 
taken over a wing in Houston and they have now done that in a 
number of States, we want to look further at your program 
because clearly we have incarcerated a lot of young people in 
this country, and trying to figure out how--in fact there is a 
``faith-based'' program that the Department of Justice has 
initiated in my home town because in Fort Wayne, we have 3,500 
people who have been locked up the last few years who are about 
to come out in the streets into one relatively small 
neighborhood and the question is how do you just not go right 
back to where we were before, what is the process toward 
getting a job, getting housing, getting mentors, getting any 
number of things. And if we cannot address these questions, all 
we are doing is teaching them how to be better criminals.
    Mr. Lanz. Would you like me to provide that----
    Mr. Souder. Yes, to Liz and----
    Mr. Lanz. May I add something?
    Mr. Souder. Sure.
    Mr. Lanz. So it is not lost in my brief overview, CCA has 
chaplains and mostly full time, a few sites have part time 
chaplains, and what I want to really say is this, that to 
really improve and enhance your program, to make a difference, 
that is why we turn to these organizations. They are mainstream 
American organizations, a proven track record. Most importantly 
they depend a tremendous amount on donations from businesses 
and American contributors, but they are very effective at 
recruiting volunteers. And through recruiting volunteers you 
can see that when I said it does not supplant our program, but 
it enhances our program. We have an existing program, we have 
chaplains in our facilities, but it was just impossible in a 
500-bed or a 1,500-bed, if you will, facility, to reach all of 
these offenders and make a difference. And when you develop 
this relationship with these providers that I mentioned and 
because of their proven track record in recruiting Christian, 
if you will, or volunteers that believe in God, you know, and 
truly make a difference, that is seriously why I think I have 
been blessed to have this opportunity to look at these 
organizations and work with them to develop this relationship 
for my company, supported by Jim Seaton, who literally--he is 
our chief operating officer--said we are remiss if we neglect 
the spiritual development of our population.
    And with Dennis Bradby echoing that, my vice president, I 
want to say that is why we turned to these organizations that 
have a proven track record utilizing wonderful volunteers to 
enhance our programs.
    Mr. Souder. I remember years ago when I was working for 
then Congressman Coats, in character education, so often in 
political terms we have to defend these activities in non-value 
ways, but one of the things we learned was juvenile centers 
that have character programs, not only improve the individual 
but they have less dissident problems internally, less problems 
in their lunchrooms, less problems with beating each other up 
and there are tangible returns, inside order, inside the prison 
system in addition to for the individual and after.
    Mr. Lanz. Let me comment on that. Champions for Life in 
cooperation with CCA, we are doing some studies about the 
quality of life and the incidence of behavior, inappropriate 
behavior, before they provide a Weekend of Champions and their 
followup program, and then after the program we do a followup 
to see what the difference is. I do not have hard facts, we are 
in the process, since we just did this partnership to develop 
the mechanics to do this study, but the wardens are sharing 
with me that once they make that announcement and you compare 
the number of incidents before and after, it really, really 
makes a difference.
    Right here at the Metro Davidson Jail for example--and I do 
not know now many Americans know this, but the Institute for 
Community--the International Institute for Community 
Corrections reports that over 5 million people are released 
from jails annually, OK? And that over 50 percent within 
several years recidivate, it is just like revolving doors.
    Well, here in Nashville, with Field Therapy, we have a grad 
student who is starting a study to try to determine recidivism. 
So when an offender is released from the jail, we are keeping 
track that he completed the program and so forth, because we 
have testimony that says it really makes a difference, but we 
are looking--as a corporation, we are looking at maybe doing 
some studies that really clearly demonstrate that. And I wanted 
to echo what you said.
    Mr. Souder. Well, thank you. And all that kind of data is 
helpful.
    One last question about your facilities. Many kind of 
county jails and so on have--are also open access from other 
groups in a less systematic way, is that true in your case? If 
a church or chaplains or others wanted to have a program?
    Mr. Lanz. Oh, without question.
    Mr. Souder. Yeah.
    Mr. Lanz. Without question. Our chaplains are expected to 
recruit volunteers so that the volunteers will provide services 
for all faiths and one of the exciting things I will just 
simply say about the Good News Jail and Prison Ministries, we 
are going to have a training session for our chaplains. That is 
the goal. And the goal is to train our chaplains to more 
effectively recruit, train and utilize volunteers to enhance 
the programs in the facilities because there is an art to that, 
there is an art to recruiting volunteers and retaining and 
training volunteers so they do not get discouraged and so that 
they want to be effective.
    Mr. Souder. And if I was Muslim and I had from my Mosque, I 
had somebody in prison and I wanted to come and visit them or 
work with them, that would be allowed?
    Mr. Lanz. Absolutely. I could demonstrate by policy, yes.
    Mr. Souder. So in understanding--you are saying in many 
ways, you are like a traditional facility where you would have 
a chaplain and individual groups can come in to talk to anybody 
they want, but you have laid this series of programs over the 
top.
    Mr. Lanz. That is correct, that is the goal.
    Mr. Souder. Well, thank you very much for both your 
testimony today as well as your work and the testimony of the 
people in the first panel. It is always fascinating to actually 
get out from Washington and have this extended period, because 
usually we have buzzers going off and any time you get us to 
focus for 5 minutes on anything it is very amazing, so thank 
you for letting us come today and we will look forward if you 
have any other information and the followup data would be 
helpful as we do this series of hearings over the next year, 
year and a half.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 10:58 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9770.015

[GRAPHIC] [TIFF OMITTED] T9770.016

[GRAPHIC] [TIFF OMITTED] T9770.017

[GRAPHIC] [TIFF OMITTED] T9770.018

[GRAPHIC] [TIFF OMITTED] T9770.019

[GRAPHIC] [TIFF OMITTED] T9770.020

[GRAPHIC] [TIFF OMITTED] T9770.021

[GRAPHIC] [TIFF OMITTED] T9770.022

[GRAPHIC] [TIFF OMITTED] T9770.023

[GRAPHIC] [TIFF OMITTED] T9770.024

[GRAPHIC] [TIFF OMITTED] T9770.025

[GRAPHIC] [TIFF OMITTED] T9770.026

[GRAPHIC] [TIFF OMITTED] T9770.027

[GRAPHIC] [TIFF OMITTED] T9770.028

[GRAPHIC] [TIFF OMITTED] T9770.029

[GRAPHIC] [TIFF OMITTED] T9770.030

[GRAPHIC] [TIFF OMITTED] T9770.031

[GRAPHIC] [TIFF OMITTED] T9770.032

[GRAPHIC] [TIFF OMITTED] T9770.033

[GRAPHIC] [TIFF OMITTED] T9770.034

[GRAPHIC] [TIFF OMITTED] T9770.035

[GRAPHIC] [TIFF OMITTED] T9770.036


</pre></body></html>
